       OFFICE OF INSPECTOR GENERAL
       U.S. Department of Transportation




Semiannual Report to Congress

  April 1, 2005 – September 30, 2005
              S emiannual 

                R eport to 

                C ongress

           April 1, 2005–September 30, 2005





Office of Inspector General ■ U.S. Department of Transportation
                             contents

From the Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page v
Work Planned and in Progress . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 1
     Aviation and Special Program Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 1
     Financial and Information Technology Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 3
     Surface and Maritime Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 6
     Competition and Economic Analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 8
Activities
     April . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 9
     May . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 13
     Perspectives on FAA Financing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 15
     June . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 20
     July      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 24
     Options for Intercity Passenger Rail . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 27
     August . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .page 31
     September . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .page 33
Other Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 39
Charts & Tables . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 41
     Summary of Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 41
     Judicial and Administrative Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 42
     Profile of All Pending Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 43
     Application of Investigative Project Hours by Priority Area . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 43
     Status of Unresolved Investigations Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 44

     Application of Investigative Project Hours by Operating Administration . . . . . . . . . . . . . . . . . . . . . .Page 45
     Completed OIG Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 45
     OIG Reports with Recommendations That Questioned Costs                                        . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 46
     OIG Reports with Recommendations That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . .Page 46
     OIG Reports Recommending Changes for Safety, Economy, or Efficiency                                             . . . . . . . . . . . . . . . . . . . .Page 47
     Management Decisions Regarding OIG Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 47
     Office of Inspector General Published Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 48
     Office of Inspector General Congressional Testimonies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 50
     Status of Unresolved Recommendations Over Six Months Old . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 51
     Application of Audit Project Hours by Operating Administration . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 53
Awards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 55
Mission, Organization, & Contacts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 83
Abbreviations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 86

                                                                                                                                                                        iii
iv   Semiannual Report to Congress
        from the 

i n s p e c t or g e n e ra l 


W
              e are pleased to present the Department of Transportation Office
              of Inspector General’s Semiannual Report to Congress for the 6
              months ending September 30, 2005. We thank Secretary Mineta,
Deputy Secretary Cino, our modal administrators, and Congressional members
and staff for their responsiveness to our recommendations to strengthen safety,
improve program delivery, and maximize efficiency.
    During this semi-annual period, we issued 24 audit reports and 89 recom­
mendations, and our investigations resulted in 146 convictions. Our office had
a financial impact on the Department, totaling more than $1.3 billion in finan­
cial recommendations, fines, restitutions, civil penalties, and recoveries. We tes­
tified before Congress on 11 occasions. A summary of highlights from audits,
investigations, and testimonies presented during this report period can be
found inside.
  As we end this reporting period and look forward to the new fiscal year,
there are four key priorities impacting the Department and driving the work of
our office.
   Hurricane Katrina. In the immediate aftermath of the hurricane, DOT was
engaged in an unprecedented effort to provide emergency relief in carrying out
its role under the National Response Plan. Following the Department’s lead
and soon after the hurricane struck, OIG criminal investigators were on the
ground in Mississippi and New Orleans protecting DOT assets and people,
assisting DOT with damage assessments, and conducting liaisons with other
Federal law enforcement agencies.
   The Department is now turning to long-term recovery and reconstruction of
the transportation infrastructure in the affected states with current estimates
exceeding $2 billion. We recently announced our plans to carry out a series of
audits and investigations to provide oversight of the Department’s relief and
recovery activities. Our plan has been developed in coordination with the Office
of the Secretary as well as the President’s Council on Integrity and Efficiency
which is coordinating government-wide oversight efforts.
   Intercity Passenger Rail. Reauthorization and the FY 2006 appropriation for
Amtrak generated substantial policy debate and controversy. During this peri­
od, we testified before Congress three times and issued a report on our analysis
of cost savings on Amtrak’s long distance service. In correspondence to the
members of the Conference Committee for the FY 2006 DOT Appropriations,

                                                                                      v
                                     we provided recommendations on how Congress could structure its appropria­
                                     tion to promote reform and achieve greater fiscal discipline in Amtrak opera­
                                     tions. The FY 2006 DOT Appropriations Act largely incorporated our recom­
                                     mendations and assigned our office responsibility for reporting quarterly on
                                     Amtrak’s progress in achieving cost savings. We will be discharging those
                                     responsibilities beginning with our first report in January 2007.
                                        Reauthorization of Surface and Aviation Programs. During this period,
                                     Congress enacted the Safe, Accountable, Flexible, Efficient Transportation
                                     Equity Act: A Legacy for Users (SAFETEA-LU), reauthorizing surface pro­
                                     grams for $287 billion over a 5-year period. SAFETEA-LU provides a historic
                                     level of financing to address the many challenges facing our surface transporta­
                                     tion system today. We will continue to stress stewardship and oversight,
                                     improved financial management, and the prevention and detection of fraud
                                     impacting these programs. Now attention will be turning to the reauthorization
                                     of our aviation programs.
                                        Over the next year, Congress and FAA will be preparing to reauthorize a wide
                                     range of aviation programs and explore alternative financing mechanisms. The
                                     current authorization and various taxes expire in 2007. With projected Aviation
                                     Trust Fund revenues failing to materialize, FAA must develop a clear under­
                                     standing of its financial requirements (for new and existing efforts) and of ways
                                     to control costs before making decisions on future funding mechanisms and the
                                     level of financing that is needed. This will also require determinations as to who
                                     should pay for what and the fair allocation of costs among stakeholders. Other
                                     key reauthorization issues include establishing requirements for the next gener­
                                     ation air traffic system and issues concerning foreign ownership of air carriers.
                                       Top DOT Management Challenges. We have identified the following nine top
                                     DOT management challenges for FY 2006 and will continue our work to aid
                                     the Department in meeting these challenges.
                                     ■ Working With Other Agencies To Respond to Disasters and Address
                                       Transportation Security
                                     ■ Getting the Most for Every Taxpayer Dollar Invested in Highway and
                                       Transit Projects
                                     ■ Building on Recent Initiatives To Further Strengthen Surface Safety
                                       Programs
                                     ■ Reforming Intercity Passenger Rail To Improve Performance



vi   Semiannual Report to Congress
■ Mitigating Flight Delays and Relieving Congestion-Actions Needed To
  Meet Demand
■ Reauthorizing Aviation Programs-Establishing Requirements and
  Controlling Costs Are Prerequisites for Examining FAA Financing Options
■ Aviation Safety-Developing Effective Oversight Programs for Air Carrier
  Operations, Repair Station Maintenance, and Operational Errors
■ Improving Information Technology Investment and Computer Security
■ Ensuring That Reforms Are Implemented in the Maritime Administration’s
  Title XI Loan Guarantee Program
  We appreciate the support and responsiveness of the Secretary, the Deputy
Secretary, the Operating Administrations, and Congress during this year’s work
and look forward to continuing our work together to achieve a safer, simpler,
and smarter transportation system for our Nation.




                                                                                 vii
viii   Semiannual Report to Congress
         work planned

        and in progress


D
           uring this reporting period, the Office of Inspector General will con­
           tinue to focus on the Department’s efforts to achieve its strategic
           objectives in safety, mobility, global connectivity, environmental
stewardship, and security. We will review the cost and schedules of major acqui­
sitions programs in FAA, safety oversight of the changing aviation industry, and
physical security of aviation facilities. We will ensure thorough financial report­
ing and accounting practices throughout the Department and review informa­
tion system acquisitions and security. We will continue to monitor the progress
of major highway and transit projects, assess programs to improve motor carri­
er safety, and evaluate activities to improve public transit and passenger rail
security. In response to the natural disasters in the Gulf Coast region, we will
ensure that the Department’s efforts to rebuild damaged or destroyed infra­
structure are well-coordinated and cost-effective to protect reconstruction
funding from fraud, waste, and abuse.

  OIG has developed the following work plan for the period of October 1,
2005, through March 31, 2006.

              AVIATION AND SPECIAL PROGRAM AUDITS
■ Air Carriers Use of Non-Certificated Repair Facilities
    Determine (1) how FAA identifies and oversees work performed at non-cer-
tificated repair facilities, (2) how FAA requirements for non-certificated facili­
ties differ from those for certificated repair stations, and (3) the quantity and
type of work air carriers outsource to non-certificated repair facilities.

■ Advanced Technology and Oceanic Procedures II
   Compare FAA’s experience in acquiring an oceanic system to the experiences
of other major oceanic air traffic control service providers. Review the cost,
schedule, and performance specifications and the operating environment (i.e.,
complexity and volume of airspace) that the system was designed to accommodate.

■ Validation of the Standard Terminal Automation Replacement System (STARS)
  Phase I Program Costs
  Review and validate the life-cycle cost studies and other relevant analyses
provided to FAA’s Joint Resources Council to justify and rebaseline Phase I of
the STARS program.


                                                                            work planned and in progress   1
                                    ■ Oversight of Aircraft Manufacturers’ Quality Assurance System for Suppliers
                                       Evaluate FAA’s oversight of aircraft manufacturers’ quality assurance system
                                    for domestic and foreign suppliers.

                                    ■ Physical Security of FAA Facilities
                                       Assess FAA’s Internal Security Program and determine whether FAA is ensur­
                                    ing (1) the integrity of those working and supporting the National Airspace
                                    System (NAS), and (2) the adequate protection of FAA’s property, and FAA per­
                                    sonnel, contractors, visitors, and operations against criminal and terrorist acts.

                                    ■ Security of Public Transit and Passenger Rail Systems
                                        Assess (1) DOT’s roles and responsibilities for overseeing security of the
                                    Nation’s public transit and passenger rail systems; (2) DOT’s efforts to collab­
                                    orate and coordinate with the Department of Homeland Security on public
                                    transit and passenger rail security rulemaking, oversight, and enforcement; and
                                    (3) the extent and effectiveness of DOT funding for securing the public tran­
                                    sit and passenger rail system.

                                        ■ Air Carriers’ Outsourcing of Aircraft Maintenance
                                           Determine the type and quantity of maintenance performed by outside
                                        repair stations, and whether FAA is effectively monitoring air carriers’ over­
                                        sight of the work performed by outside repair stations and verifying
                                        whether safety requirements are met.

                                        ■ FAA’s Telecommunications Infrastructure Program
                                           Determine whether FAA’s plans to integrate separate FAA owned or
                                        leased telecommunications networks into a single network can be delivered
                                    within revised cost and schedule baselines, and identify the key program risks
                                    that could affect FAA’s ability to meet cost and schedule projections.

                                    ■ Follow-up Review of Air Traffic Controller Training
                                      Determine if FAA has considered alternative approaches that could expedite
                                    the training process and reduce costs associated with training new controllers.

                                    ■ FAA’s Air Traffic Organization Controls Over Credit Hours
                                       Determine whether FAA’s management controls are adequate to ensure that
                                    air traffic controllers are properly awarded credit hours and are productively
                                    employed while earning those credit hours.

                                    ■ Integrity Threats to Hazardous Liquid Pipelines
                                       Assess (1) actions taken by pipeline operators to remediate integrity threats,
                                    and (2) Office of Pipeline Safety efforts to verify the adequacy of these correc­
                                    tive actions.

2   Semiannual Report to Congress
■ FAA Joint Planning and Development Office (JPDO)
   At the request of the Chairman and Ranking Member of the House
Transportation Infrastructure’s Aviation Subcommittee, we are examining
progress to date with the new JPDO. The objectives are to determine (1)
progress made by JPDO in aligning and leveraging research conducted by
other Federal agencies, (2) how the JPDO will shift new technologies and
capabilities from research to prototype and introduction into the National
Airspace System, and (3) what barriers JPDO must overcome to transition to
a new air traffic management system.

■ Follow-up on Airline Customer Service Commitment
   Address select provisions of the Airline Customer Service Commitment
and related issues that have an immediate impact on passengers, such as (1)
notification of delays and cancellations, (2) frequent flyer program, (3)
overbooking and denied boardings, and (4) accommodation for disabled
and special needs passengers. In addition, we will evaluate how well the
Department is overseeing and investigating air travel and consumer protec­
tion requirements. The audit was requested by the Chairman of the House
Transportation and Infrastructure’s Aviation Subcommittee.

■ FAA’s Oversight of Airport Revenue
  Determine if selected airports are complying with revenue use require­
ments.

■ FAA Implementation of the Automatic Dependent Surveillance —
   Broadcast (ADS-B) System
   Determine the status of FAA’s research and development efforts, evaluate
FAA plans for transitioning ADS-B into the NAS, and assess whether or not it
is cost-beneficial.

■ Progress in Executing FAA’s Air Traffic Controller Staffing Strategy
   Address FAA’s progress in executing this plan and whether productivity
gains are being realized and realistically quantified. Results of this audit could
be important in terms of pending negotiations with controllers’ union over a
new collective bargaining agreement.

            FINANCIAL AND INFORMATION TECHNOLOGY
■ Use of Contract Audit Services, DOT Operating Administrations
  Determine whether DOT and its Operating Administrations are obtaining
contract audit services as necessary and in accordance with policies, procedures,
and acquisition regulations.



                                                                           work planned and in progress   3
                                    ■ Contractor Overhead and Compensation Under Grants
                                       Review the effectiveness and implementation of audit provisions in Section
                                    307 of the National Highway System Designation Act addressing audits of
                                    contracts awarded by states to engineering and design firms. Procedures
                                    include testing the allowability of compensation and other high-overhead cost
                                    elements billed by these firms.

                                    ■ Security and Controls Over the Remote Maintenance Monitoring System
                                       Determine whether maintenance processing systems are adequately secured
                                    to ensure the integrity and availability of field equipment supporting air traffic
                                    control operations and services.

                                    ■ FRA Network Infrastructure Security
                                      Review security over Virtual Private Network, wireless, and third-party con­
                                    nections to the DOT network.

                                    ■ Review of Spending Priorities for the Office of the Assistant Secretary for
                                      Administration
                                      Determine if the Office of the Assistant Secretary for Administration (1) has
                                    adequate support for budget requests, including funds to operate the Working
                                    Capital Fund; (2) supports DOT operations commensurate with the office’s
                                    mission; and (3) properly accounts for Working Capital Fund resources.

                                    ■ RESULTS Multiple-Award Procurement Program for Support Services
                                       This is the first of two audits being performed on FAA’s multiple-award con­
                                    tracts and addresses the RESULTS multiple-award program. Determine
                                    whether RESULTS was properly established and whether contracts are prop­
                                    erly competed, administered, and have well defined scope. Also, review allega­
                                    tions of abuse under a RESULTS contract.

                                    ■ FY 2005 Audit of the Working Capital Fund Financial Statements
                                       Ensure the independent public accounting firm audit of the Working Capital
                                    Fund’s FY 2005 Financial Statements is in accordance with U.S. Generally
                                    Accepted Government Auditing Standards, Government Auditing Standards
                                    issued by the Comptroller General of the United States, and Office of
                                    Management and Budget guidance.

                                    ■ FY 2005 Audit of Volpe National Transportation Systems Center Financial
                                      Statements
                                      Ensure the independent public accounting firm audit of the Volpe National
                                    Transportation Systems Center’s FY 2005 Financial Statements is in accor­
                                    dance with U.S. Generally Accepted Government Auditing Standards,
                                    Government Auditing Standards issued by the Comptroller General of the


4   Semiannual Report to Congress
United States, and Office of Management and Budget guidance.

■ DOT Payroll Processing
  Research the DOT’s Employee Express and payroll interface and other
potential payroll processing concerns.

■ Oversight of SAS-70 Review of FAA’s Enterprise Service Center as it Relates to
   the Delphi Financial Management System
   Contract with an independent public accounting firm to conduct a SAS-70
review of the DOT Enterprise Service Center as it relates to the Delphi
Financial System and perform follow-up work based on the firm’s results.

■ Use of Multiple Award Contracts, FAA
   This is the second audit of FAA’s multiple-award program for support serv­
ices. Examine the use of FAA’s BITS2 and MASS multiple award contract pro­
grams to determine whether the awards are made competitively, in a cost effi­
cient manner, and review the effectiveness of the administration of these con­
tracts.

■ DOT IT Investment Management Decision Making
   Evaluate key aspects of the Department’s IT investment management review
process. Specifically, we will determine if (1) earned value management is being
properly used to identify high-risk (with significant cost and schedule variance)
projects for DOT and Operating Administration (OA) IRB reviews and (2) cor­
rective actions are being taken by OAs to remediate high-risk investments.

■ FY 2006 DOT Consolidated Financial Statements
  Render an opinion on the financial statements and issue reports on internal
controls and compliance with financial-related laws and regulations.

■ Quality Control Review of FY 2006 Highway Trust Fund Financial Statements
   Perform a QCR of the audit by an independent public accounting firm and
determine if the audit was performed in accordance with applicable auditing
standards.

■ Quality Control Review of FY 2006 FAA Financial Statements
   Perform a QCR of the audit by an independent public accounting firm and
determine if the audit was performed in accordance with applicable auditing
standards.

■ DOT Implementation of New OMB Circular A-123
  Review actions taken by DOT and the Operating Administrations to imple­
ment the requirements of the revised OMB Circular A-123.


                                                                          work planned and in progress   5
                                    ■ QCR of FY 2006 SAS-70 Review of Delphi System Operations
                                       Determine whether controls asserted by management are fairly presented,
                                    suitably designed, and effectively implemented to ensure the integrity of Delphi
                                    system operations.

                                                     SURFACE AND MARITIME PROGRAMS
                                         ■ Federal Highway Administration’s Oversight of Load Ratings and
                                           Postings on Structurally Deficient Bridges
                                           Evaluate whether (1) structurally deficient bridges on the National
                                         Highway System have been inspected in accordance with National Bridge
                                         Inspection Standards, and (2) FHWA’s oversight has been effective in
                                         addressing the states’ calculation of load limits and posting of maximum
                                         weight limits on these bridges.

                                          ■ Federal Motor Carrier Safety Administration Oversight of the Commercial
                                            Drivers License (CDL) Program
                                            Ascertain what actions FMCSA has taken to determine the status of
                                    suspect drivers identified by the states and to inform FMCSA of our observa­
                                    tions regarding the issuance of fraudulent CDLs.

                                    ■ Federal Transit Administration Bus Procurement Processes
                                       Determine whether FTA’s oversight ensures that transit agencies using
                                    Federal funds to purchase transit bus fleets (1) follow procurement and man­
                                    agement practices in accordance with Federal guidelines, and (2) have insti­
                                    tuted business practices that achieve the most cost-effective use of Federal
                                    dollars.

                                    ■ Central Artery/Tunnel Project 2004 Finance Plan
                                       Determine whether the 2004 Finance Plan (1) presents a cost estimate
                                    that is based on all known and reasonably expected costs, (2) identifies
                                    appropriate and available funding sources sufficient to meet the total esti­
                                    mated cost, (3) provides a project construction schedule that is based on all
                                    known and reasonably anticipated delays, and (4) discloses other issues
                                    affecting the project.

                                    ■ Highway-Rail Grade Crossing Accident Reporting, Investigations, and Safety
                                       Regulations
                                       Assess the adequacy of the Federal Railroad Administration’s oversight of
                                    highway-rail grade crossing accident reporting to the National Response
                                    Center, accident investigations, and enforcement of safety regulations.




6   Semiannual Report to Congress
■ Motor Carrier Safety Program
   Assess FMCSA’s progress in implementing OIG’s 1999 audit recommenda­
tions, establishing the new entrant program, and completing MCSIA-required
rulemakings.

■ NHTSA’s Oversight of Alcohol-Impaired Driving Programs
   Identify the defining characteristics that constitute alcohol-related crashes;
compare the scope, direction, resources, and expenditures of programs and
activities of those states with the highest and lowest alcohol-related fatalities,
including the use of high-visibility law enforcement methods; and determine
Federal resources dedicated to this effort.

■ FHWA’s Oversight for Implementing Value Engineering (VE)
   Determine whether FHWA’s oversight is adequate to ensure that (1) VE stud­
ies are performed in accordance with established criteria, and (2) VE recom­
mendations are timely and implemented to the maximum extent possible, per­
mitting potential savings to be achieved.

■ Oversight Efforts for Hurricane Relief and Recovery Actions
   Determine whether FHWA, FRA, FTA, MARAD, and state trans­
portation departments have adequate oversight of Department expen­
ditures and put systems in place to make certain that funds are appro­
priately spent.

■ Oversight of FTA Fixed Guideway Modernization
   Assess FTA’s statutory oversight role and evaluate a sampling of
transit agencies to determine whether they have used these funds in
accordance with the Program policies.

■ Monitoring of Transit Capital Projects
   Identify (1) the status of selected major projects, and (2) risks that may
adversely impact the cost, schedule, and funding for these projects. In addi­
tion, we will identify best practices being used by project sponsors and grantees
to manage cost, schedule, and funding risks.

■ Major Highway Project Monitoring Effort
   Improve the identification, measurement, and prioritization of project risk
factors that may cause deviations from approved project scope, schedule,
budget, and accepted standards for quality and safety.




                                                                            work planned and in progress   7
                                                   COMPETITION AND ECONOMIC ANALYSIS
                                        ■	 Delays and Cancellations in Small Communities
                                           For a select number of small- and non-hub airline markets, compare the
                                        number and rate of airline delays and cancellations to service characteristics
                                        in larger markets. Describe the decision-making process and the roles of
                                        the various air traffic control, airline, and airport functions in determining
                                        how delays and cancellations are allocated throughout the National
                                        Airspace System under constrained capacity conditions.

                                        ■	 Assessment of Amtrak’s Financial Performance and Capital

                                             Requirements

                                      Evaluate and analyze Amtrak’s current financial status and the reasonable­
                                    ness of its 5-year strategic capital plan.

                                    ■ Amtrak’s Legal Expenditures and Costs Related to the Northeast High Speed
                                      Rail Improvement Project
                                      Analyze Amtrak’s legal expenditures and costs related to the Northeast High
                                    Speed Rail Improvement Project since its inception.

                                    ■ Maximizing Revenues from Amtrak Northeast Corridor Services
                                      Determine the revenue-maximizing fare structure for both high-speed and
                                    conventional rail services provided by Amtrak on the Northeast Corridor.

                                    ■ Financing the Aviation System
                                      Examine the financing structure (i.e., taxes, fees, and prices) supporting the
                                    operation of and investment in the airway system in the United States. Assess
                                    whether a different funding model could produce more efficient operation of
                                    the system while also providing better information to direct investment.

                                    ■ Airline Metrics
                                      Update statistics on airline industry metrics regarding air service demand
                                    and capacity, service performance, airline finances, and air service at small air­
                                    ports.




8   Semiannual Report to Congress
                    activities


       Wisconsin Concrete Construction Company and Owner 

          Ordered to Pay $1.8 Million for Bid-Rigging on 

          Approximately $100 Million in Highway Projects

April 1, 2005
   Vinton Construction Co. (Vinton) of Manitowac, Wisconsin, and one of its
owners, James Maples, were sentenced in U.S. District Court in Green Bay,
Wisconsin, for bid-rigging on approximately $100 million in highway con­
struction contracts from pre-1999 until January 2004. Vinton was ordered to
pay $1.3 million in restitution and a $150,000 fine, while James Maples was
fined $300,000 and ordered to pay $50,000 in restitution. On April 22, 2005,
Michael Maples, the other co-owner of Vinton was sentenced in the same court
to 12 months in prison and ordered to pay $200,000 in fines and restitution
for bid-rigging. Another firm, Streu Construction Co. of Two Rivers,
Wisconsin, and its owners were sentenced in January 2005 to a combined $1.1
million in fines and restitution, with its executives sentenced to a total of one
year and five months in prison stemming from their guilty pleas to the bid-rig-
ging charges. Vinton and the co-owners, James and Michael Maples, were sus­
pended from contracting on Federally funded projects in March 2004. Ernest
and John Streu are subject to a voluntary exclusion from doing business with
the government which is effective through August 3, 2007. This investigation,
one of the largest DOT fraud cases in Wisconsin, was conducted jointly with
the FBI and DOJ Antitrust Division, with assistance from FHWA and the
Wisconsin DOT.

     Photo Refurbishing Company/Owner to Pay $500,000 for 

                       HAZMAT Violations

April 1, 2005
   BEF Corporation (BEF), Allentown, Pennsylvania, and its President, Elward
B. Brewer, were sentenced in U.S. District Court in Allentown to a total of
$500,000 in fines and restitution following their November 2004 guilty pleas
for violating HAZMAT regulations. BEF is a photographic equipment recon­
ditioning business, which generates HAZMAT (e.g., silver compounds and
acid wastes) in their refurbishing process. Brewer admitted to directing BEF




                                                                                    activities   9
                                     employees to discharge the hazardous pollutants into the sewer systems of
                                     Bethlehem, Pennsylvania, and South Whitehall Township. BEF employees also
                                     transported the HAZMAT via truck (without proper documentation and plac­
                                     arding as required by FMCSA regulations) to other BEF facilities in
                                     Pennsylvania for dumping in local sewer systems. The investigation was con­
                                     ducted jointly with EPA-CID.

                                                   Reauthorization of TEA-21 Safety Programs
                                     April 5, 2005
                                        The Inspector General testified before the Senate Subcommittee on Surface
                                     Transportation and Merchant Marine on reauthorization of the Transportation
                                     Equity Act for the 21st Century safety programs. The Department has estab­
                                     lished a goal to reduce the overall highway fatality rate to one death per 100
                                     million vehicle miles traveled by 2008. Meeting the Department’s goals will
                                     require a decrease in 5 years that is almost twice the decrease that was accom­
                                     plished in the previous 11 years. We identified the following items to help the
                                     Department to achieve its goals: (1) use covert methods to identify CDL fraud,
                                     (2) strengthen state enforcement of laws that bar Mexican trucks from operat­
                                     ing in the United States without proper authority, (3) increase enforcement of
                                     egregious violations of Hours of Service regulations, (4) refocus funds to
                                     reduce drunk driving, (5) increase the use of seat belts, (6) increase the use of
                                     motorcycle helmets, and (7) detect vehicle and equipment defects more effec­
                                     tively. Another safety issue that will require attention by the Pipeline and
                                     Hazardous Materials Safety Administration is the safety and security of haz­
                                     ardous materials shipments. Also, although not a safety-related issue, the
                                     Federal Motor Carrier Safety Administration needs to strengthen enforcement
                                     actions to protect consumers from fraud perpetrated by unscrupulous house­
                                     hold goods moving companies.

                                            Department of Transportation’s Implementation of the
                                               Federal Information Security Management Act
                                     April 7, 2005
                                        The Assistant Inspector General for Financial and Technology Audits testi­
                                     fied before the House Government Reform Committee regarding the
                                     Department’s significant progress over the last 2 years in protecting its infor­
                                     mation and information systems in compliance with the Federal Information
                                     Security Management Act. However, challenges still remain to securing the
                                     Department’s information systems. DOT’s progress includes (1) increasing
                                     the focus of security in IT investment decisions, (2) strengthening the pro­
                                     tection of networks from internal and external attacks, (3) increasing the num­
                                     ber of systems certified and accredited from 33 percent to over 90 percent, and


10   Semiannual Report to Congress
                     activities


(4) strengthening background checks. The Department’s challenges for improv­
ing information security include (1) enhancing air traffic control system securi­
ty, (2) improving the quality of the security certification reviews, (3) and focus­
ing attention on emerging threats from new technologies.

    Indiana Transportation Company Ordered to Pay $400,000

                 for HAZMAT Training Violations 

April 11, 2005
    Bulkmatic Transport Company, Griffith, Indiana, was ordered by a U.S.
District Court judge in Chattanooga, Tennessee, to pay a total of $400,000 for
failing to provide employees with full HAZMAT training required by statute.
The one-count felony charge filed in November 2004 followed an incident in
January 2001 in which a Bulkmatic employee suffered serious chemical burns
to his torso and eyes while transferring sulfuric acid from a rail cargo tanker to
a truck tanker in Chattanooga. Bulkmatic subsequently paid $75,000 in clean­
up costs from the 1,800 gallon acid spill. FRA assisted in this investigation,
which found that Bulkmatic employees, trans-loading HAZMAT on 113 occa­
sions from February 1999 through January 2001, had not been trained in
accordance with statutory requirements.

                Next Steps for the Air Traffic Organization
April 14, 2005
   The Inspector General testified before the House Subcommittee
on Aviation on progress to date with FAA’s Air Traffic
Organization (ATO) and the new Joint Program and Development
Office. The testimony focused on the steps the ATO can take to
provide safe and efficient air traffic services to an increasing number
of passengers and aircraft operations, and how ATO can accomplish
that mission in a cost-effective way. The Inspector General high­
lighted the need to make decisions on billion-dollar projects that
have been delayed for years and addressed the wave of pending
controller retirements. Also, the Inspector General pointed out the
need to examine the costs of moving forward with the next-gener-
ation air traffic management system being pioneered by the Joint
Program and Development Office.


                                                                                      activities   11
                                            Reauthorization of Intercity Passenger Rail and Amtrak
                                     April 21, 2005
                                        The Inspector General testified before the Senate Subcommittee on Surface
                                     Transportation and Merchant Marine regarding the reauthorization of interci­
                                     ty passenger rail and Amtrak. The testimony addressed Amtrak's unsustainably
                                     large operating losses, increasingly poor on-time performance, and increasing
                                     levels of deferred infrastructure and fleet investment. The Inspector General
                                     emphasized the need for a comprehensive reauthorization that provides ade­
                                     quate funding, focuses on improving mobility in short distance corridors,
                                     restructures long distance services to complement corridor services, and pro­
                                     vides a more robust capital match program for the states.

                                         Impact of Water Leaks on the Central Artery/Tunnel Project
                                                           and Remaining Risks
                                     April 22, 2005
                                         The Inspector General testified before the House Committee on
                                        Government Reform at a field hearing in Boston, Massachusetts, on the
                                         Central Artery/Tunnel project. The testimony focused on the status of the
                                         leaks, risks to the taxpayers, current cost recovery efforts, and impacts of the
                                        leaks on the Project’s Finance Plan. We also included observations on two
                                      important lessons this troubled project has taught us about oversight of major
                                     infrastructure construction projects.

                                       Painting Company Executive Sentenced to Two Years in Prison,
                                           Ordered to Pay $100,000 for Illegal HAZMAT Disposal
                                     April 29, 2005
                                        Nick Muskie, (also known as Nickolas Mouzakis), president of Kerrville
                                     Painting Company (KPC) of Kerrville, Texas, pleaded guilty and was sentenced
                                     in Okmulgee County District Court, Oklahoma to two years in prison and
                                     ordered to pay $100,000 in restitution under state charges of unlawfully dis­
                                     posing of hazardous waste. During 1999 and 2000, hazardous lead-based
                                     waste associated with KPC work on a Federally funded bridge contract in
                                                 Oklahoma was dumped into an area that drained into Coal Creek,
                                                 Oklahoma. KPC, Muskie, a KPC supervisor, and an Arkansas state
                                                 inspector all pleaded guilty to federal charges and were sentenced
                                                 in November 2004 for similar illegal activity on Federally funded
                                                 bridge contracts in Arkansas. The investigation was conducted
                                                 jointly with the Environmental Protection Agency, Criminal
                                                 Investigation Division (EPA-CID), the Oklahoma Department of
                                                 Transportation, the Oklahoma Attorney General’s Environmental


12   Semiannual Report to Congress
                   activities


Protection Unit, and both the Arkansas and Oklahoma Departments of
Environmental Quality.

 New York Construction Contractor Ordered to Pay $310,000 for

                   Making False Statements

May 4, 2005
   Srinivas Thimmappa, a former project manager for Trataros
Construction, Inc. (TCI), Brooklyn, New York, was sentenced in
U.S. District Court in Brooklyn to pay $310,000 in fines and
restitution for making false statements to federal agents.
Thimmappa created a shell company in a scheme to defraud TCI
and the New York Metropolitan Transportation Authority, FTA’s
largest grantee. The investigation found that although
Thimmappa claimed to be performing part-time engineering
work for Logix Construction Services (Logix), Logix did not per­
form any work on the project, but submitted bills for such work
to TCI. In November 2004, Thimmappa pled guilty. Debarment
of Thimmappa from doing business with the government for a specified peri­
od of time is under consideration by the General Services Administration
(GSA). The case was investigated with the FBI and GSA-OIG.

      Florida Worldwide Intermodal Transportation Company 

         Ordered to Pay $305,000 for HAZMAT Violations

May 4, 2005
   Seaboard Marine, Ltd. (Seaboard), Medley, Florida, was ordered by a U.S.
District Court judge in Miami, Florida, to pay $305,000 in fines, restitution,
and community service payments for the illegal transportation of HAZMAT.
Seaboard pleaded guilty in September 2004, admitting to transporting leaking
hazardous cargo (e.g., phosphoric acid, hydrochloric acid, and potassium
hydroxide) in 55-gallon drums and boxes to various locations in the Miami-
Dade County area in 2002, in violation of HAZMAT transportation regula­
tions. Laparkan Trading Limited Company, a freight forwarding company in
Miami (and one of the locations to which the HAZMAT cargo was taken by
Seaboard), pleaded guilty to related charges in March 2005 and was sentenced
on May 10, 2005 to pay $135,000 in fines and community service payments.


                                                                                 activities   13
                                     The investigation was conducted jointly with the Florida Department of
                                     Environmental Protection and the Miami-Dade Police Department, with assis­
                                     tance from FMCSA.

                                                  Perspectives on the Aviation Trust Fund and
                                                 Financing the Federal Aviation Administration
                                     May 4, 2005
                                        The Inspector General testified before the House Aviation Subcommittee on
                                     the state of the Aviation Trust Fund and various options being debated for
                                     financing FAA. The testimony focused on (1) recent trends affecting the Trust
                                     Fund that account for declining revenues; (2) additional steps that FAA can
                                     take to control costs; (3) the need to determine current and future funding
                                     requirements; and (4) perspectives on various potential financing mechanisms,
                                     including transitioning to user fees. The Inspector General also provided views
                                     on granting FAA authority to borrow funds for long-term capital investments.

                                                    Background Checks For Holders of
                                                 Commercial Drivers Licenses With Hazardous
                                                         Materials Endorsements
                                     May 11, 2005
                                             The Deputy Inspector General testified before the House
                                          Subcommittee on Highways, Transit, and Pipelines on background
                                          records checks for hazardous materials truck drivers. The testimony
                                          focused on (1) the Commercial Drivers’ License (CDL) program as a sig­
                                          nificant safety initiative and the continued efforts to strengthen its effec­
                                          tiveness, (2) background records checks for hazardous materials endorse­
                                          ments and how they serve both safety and security purposes, and (3) areas
                                          to watch as the background records checks process gets underway. The
                                          new background criminal history records checks for holders of CDLs with
                                          hazardous materials endorsement will, if properly implemented, add an
                                          additional layer of safety and security by ensuring we know drivers are
                                          who they say they are, are legally present in the United States, and can be
                                          trusted with the public’s safety.



                                                                                                 Continued on page 17)




14   Semiannual Report to Congress
                                 Perspectives on FAA Financing


L    ast May, we testified before the House Transportation and Infrastructure Aviation Subcommittee on alarming
     revenue trends of the Aviation Trust Fund and financing options and challenges for the Federal Aviation
     Administration (FAA). This issue will take center stage in the coming months because the current FAA authori-
zation—Vision 100—and the government’s authority to collect aviation excise taxes expire in 2007.
■ Tax revenues used to finance FAA have not materialized as expected. In 2001, FAA estimated that Aviation Trust
    Fund revenues would be $14.5 billion in FY 2005, which would have exceeded the Agency’s FY 2006 budget
    request. However, this estimate has now been reduced by 25 percent to $10.9 billion, falling short of FAA’s cur-
    rent budget by about $3 billion. Out-year estimates have also been reduced significantly since 2001.
■ Much of the decline in tax revenues can be attributed to reduced yields from the 7.5 percent ticket tax. According
    to Air Transport Association data, the average fare for a 1,000-mile flight has dropped from $149 in March 2000
    to $118 in March 2005. These lower fares have resulted in lower ticket tax revenues. Since FY 2000, revenues from
    the ticket tax have dropped from $5.1 billion to a low of $4.3 billion in FY 2003. With the enormous growth of
    low-cost carriers and market pressure for con-
    tinued low fares, we may be seeing a long-
    term structural change within the aviation
    industry that would affect FAA’s future rev-
    enue stream.
■ FAA’s budget is outpacing declining Trust Fund
    revenues.   Between FY 2000 and FY 2004,
    FAA’s budget has gone from $10.9 billion to
    $13.9 billion, an increase of nearly 28 percent.
    At the same time, expected Trust Fund rev-
    enues have not materialized. This increase in
    FAA’s budget can be attributed to rising oper-
    ating costs, most of which are caused by
    increasing salaries. The rising operating costs
    are crowding out capital projects.


CHALLENGES FOR FAA
  Before FAA can explore various financing alternatives, it must determine funding requirements and control costs.
These issues include determining cash flow requirements for existing projects and making decisions on whether to con-
tinue, modify, or discontinue multi-billion dollar capital projects, such as the Standard Terminal Automation
Replacement System program. The Agency must also determine funding requirements for the next-generation air
traffic management system (which is being pioneered by FAA’s new Joint Program and Development Office), deter-
mine when these funds will be needed, and set 5- and 10-year benchmarks for what can be accomplished. At the same
time, FAA must proactively control costs on major capital undertakings that are just getting started, such as the En-
Route Automation Modernization project.




                                                                                f o c u s                         15
 FINANCE ALTERNATIVES
                                                     c h a r t s                                          &
     The Inspector General’s testimony also presented several options available to finance FAA—none of which will
 be easy.
 ■ First, adjustments could be made to the current financing system. One of these adjustments includes relying more
      on the General Fund to pay for FAA’s budget. While this option lessens the financial burden on the Aviation Trust
      Fund, it is difficult to expect increases from the General Fund over historical levels given the deficit and sharp com-
      petition for Federal funds. The size of the General Fund contribution will be a central issue in the upcoming
      debate about how to finance FAA.
      Another adjustment could include making
      changes to the current excise tax structure.
      However, the airlines have contended that
      they cannot absorb tax increases due to
      passenger demand for lower-priced air-
      fares.
 ■ Another way would be for FAA to imple-
      ment a user-fee system, in which fees that
      correspond to the Agency’s cost of providing air traffic services would be charged to users. There are several
      methods that could be used to charge user fees, such as charges based on the weight of an aircraft and the dis-
      tance flown. FAA is exploring this and other methods as well as the policy implications.
 ■ Another alternative being discussed is bonding, which would provide FAA with borrowing authority to finance
      capital projects. The bonds would be backed by a well-defined and predictable source of revenue. While ques-
      tions regarding the structure of the borrowing authority need to be answered, it is critical that certain conditions
      be met. These include the following: (1) there must be a clear understanding of what investment FAA would be
      borrowing money for (i.e., long-term investments to meet future demand); (2) this is not simply a short-sighted
      vehicle to put off increased fees or taxes in the near term; and (3) accountability and discipline must be established
      to ensure capital projects are completed on-time and within cost parameters and provide the expected benefits.


 FUTURE OUTLOOK
     FAA has taken positive steps towards becoming a performance-based organization by creating the Air Traffic
 Organization to operate the air traffic control system more efficiently. The Agency has also made progress in imple-
 menting a cost accounting system and labor distribution system—prerequisites for operating more like a business.
 Moreover, FAA recently published its intent to examine financing alternatives in the Federal Register and, for the first
 time, made public cost and air traffic activity on the nation’s air traffic control system.
     However, the FAA financing debate has only just begun. The Agency still faces a myriad of difficult and contentious
 policy issues affecting aviation stakeholders that need to be resolved. These include instituting a financing system that
 allocates costs equitably to airspace users while meeting the Agency’s short- and long-term financing needs. FAA must
 also articulate a vision of its next-generation system, what additional steps it can take to control costs, and establish
 funding requirements for existing and planned projects.




16              Semiannual Report to Congress
                    activities


              Intercity Passenger Rail and Amtrak
May 12, 2005
   The Inspector General testified before the Senate Committee on
Appropriations, Subcommittee on Transportation, Treasury, the Judiciary,
Housing and Urban Development, and Related Agencies on intercity pas­
senger rail and Amtrak. The testimony addressed Amtrak’s unsustainably
large operating losses, increasingly poor on-time performance, and
increasing levels of deferred infrastructure and fleet investment. The
Inspector General emphasized the need for a comprehensive reauthoriza­
tion that provides adequate funding, focuses on improving mobility in
short-distance corridors, restructures long-distance services to comple­
ment corridor services, and provides a more robust capital match program
for the states.

    Airspace Redesign Efforts Are Critical To Enhance Capacity 

                 but Need Major Improvements

May 13, 2005
   We evaluated FAA’s management and oversight of the National Airspace
Redesign (NAR) program, which represents Agency efforts to revamp the
nation’s airspace. These efforts are critical to get the most benefit from new
and existing runways and new technology. We found that FAA’s management
of airspace redesign efforts was seriously fragmented and diffused. As a result,
cost and schedule estimates for airspace redesign projects were not reliable,
projects were delayed 3 years or more, and efforts were not effectively coordi­
nated. We made recommendations to FAA aimed at strengthening FAA’s
process for airspace redesign, setting priorities, and making efforts more cost
effective. FAA is taking steps to address our recommendations.

      Illinois Paving Contractor Agrees to Pay $500,000 to Settle 

     False Billing Allegations; Company Officer Pleads Guilty to 

             Mail Fraud in Related Criminal Prosecution

May 17, 2005
   Curran Contracting Company, Inc. (Curran) of Crystal Lake, Illinois,
reached a $500,000 civil settlement to resolve allegations of overcharging the


                                                                                   activities   17
                                     government for road building and asphalt paving projects in northern Illinois
                                     between 1990 and 2000. At the same time, a Curran engineer, Scott Conkel,
                                     pleaded guilty in U.S. District Court in Rockford, Illinois, to criminal charges
                                     of defrauding the Illinois Department of Transportation and other paving cus­
                                     tomers of $35,000 by inflating the amount of materials used in projects.
                                     Conkel was subsequently sentenced to 12 months probation, 580 hours of
                                     community service, and ordered to pay both $35,000 in restitution and a
                                     $4,000 fine. The case was investigated jointly with the FBI.

                                                    Two Ohio Construction Companies Agree
                                                    to Pay Over $933,000 in DBE Fraud Case
                                     May 20, 2005
                                              A civil settlement was filed in the U.S. District Court in Cleveland
                                           involving Kenmore Construction Company (Kenmore), Akron, Ohio,
                                           and Choice Construction (Choice), Solon, Ohio, based on a lawsuit
                                           alleging that the two construction companies conspired to submit false
                                           claims for payment to the United States. Under the settlement,
                                           Kenmore agreed to pay $622,418 and Choice signed a Consent
                                           Judgment for $311,209. Kenmore had been awarded various Federally-
                                           funded road construction contracts based on representations that it was
                                           subcontracting with Choice as a legitimate woman-owned DBE.
                                           Investigation found that Kenmore employees and equipment (rather
                                           than those of Choice) were used to perform the work, which under­
                                           mines the purpose of the DBE program. Choice is now out of business
                                     and Kenmore will be debarred if it fails to conform to a corporate compliance
                                     program monitored by the Ohio Department of Transportation.

                                        Former FAA Air Traffic Controller Jailed for False Statements
                                            Made on Airman Medical Certification Applications
                                     May 23, 2005
                                        Paul D. Beall, a former Air Traffic Control Specialist, was sentenced in U.S.
                                     District Court in Philadelphia, Pennsylvania, to 90 days in prison and a $5,500
                                     fine for making false statements to the FAA on five applications for his Airman
                                     Medical Certificate between 2000 and 2004. On March 2, 2005 Beall plead­
                                     ed guilty to the charges, admitting to failure to disclose (1) that he suffered
                                     from several ailments, including hypertension; (2) that he had been prescribed
                                     regulated medications; and (3) that he had pleaded guilty to prior charges of
                                     driving under the influence. In April 2004, Beall was reassigned to non-aircraft
                                     controller duties and retired from the FAA on January 31, 2005.




18   Semiannual Report to Congress
                    activities


 Outlook for Aviation Delays in the Summer of 2005 and Actions

   Needed to Mitigate Congestion in the Short- and Long-term

May 26, 2005
   The Inspector General testified before the Senate Aviation Subcommittee on
the status of aviation congestion and delays. The statement highlighted the
growth in passenger enplanements and operations, which has resulted in sig­
nificantly more delays systemwide. Beyond this summer, the continued growth
of low-cost carriers, especially in what have traditionally been network hubs,
increased general aviation jet traffic (including micro jets), and rebounding
international passenger and cargo traffic will likely contribute to further con­
gestion. FAA and DOT have taken actions to enhance the flow of air traffic.
The Inspector General highlighted the need to (1) establish funding require­
ments for capital investments and what new capabilities can be brought online
to reduce delays in 5- and 10-year benchmarks, (2) address the pending wave
of controller retirements, and (3) continue to explore market-based solutions
where new runways are not an option.

   Status of FAA’s Major Acquisitions: Cost Growth and Schedule

         Delays Continue To Stall Air Traffic Modernization

May 26, 2005
   We issued our third annual report on the status of FAA’s major
acquisitions. Major acquisitions represent FAA’s primary efforts
to modernize or add new capabilities to the National Airspace
System (NAS). We found that cost growth, schedule delays, and
performance shortfalls with FAA’s major acquisitions continue to
stall air traffic modernizations. Overall, 11 of 16 projects have
experienced cost growth of over $5.6 billion (from $8.9 billion
to $14.5 billion), which is more than double the $2.5 billion
amount of FAA’s appropriations for modernization in Fiscal Year
2005. Additionally, 9 of 16 projects have schedule delays ranging from 2 to 12
years, while 2 other projects have been deferred. Given the cost growth and
schedule slips with major acquisitions, we recommended that FAA develop a
comprehensive strategy for modernizing the NAS to ensure major acquisitions




                                                                                   activities   19
                                     are delivered within cost, schedule, and performance milestones. As FAA updates
                                     its major acquisition program baselines, it needs to revalidate the capabilities and
                                     benefits that each project is expected to provide the NAS, determine when the
                                     benefits will be delivered, the cash flow requirements needed to complete imple­
                                     mentation of the system, and report its results to Congress.

                                        Report on Controller Staffing: Observations on FAA’s 10-Year
                                             Strategy for the Air Traffic Controller Workforce
                                     May 26, 2005
                                                 We issued our review of FAA’s initial plan to address the expected
                                              increases in controller attrition over the next decade. In our opinion,
                                              the plan is a good first step in that it clearly lays out the magnitude of
                                              the issue and establishes planned actions for meeting the challenge.
                                              However, FAA needs to address four issues in its next report to
                                              Congress: (1) staffing needs by location, (2) addressing an increased
                                              number of developmental controllers, (3) the total cost associated with
                                              the plan, and (4) implementing initiatives to increase controller pro­
                                              ductivity. That information is necessary to ensure that FAA’s stake­
                                              holders have a complete and accurate picture of the ongoing 10-year
                                              plan and the resources required. Our recommendations address the
                                              specific actions the Agency needs to take to accomplish those require­
                                              ments.

                                                Minnesota Company and President Plead Guilty
                                             to Defrauding Multiple Federal-aid Highway Projects
                                     June 3, 2005
                                        Minnesota Valley Landscape, Inc. (MVL) and its President, David Allyn
                                     Lindstrom, pleaded guilty in U.S. District Court in St. Paul, Minnesota, to a
                                     charge of conspiracy to defraud the Federal Highway Administration on
                                     Federally funded highway construction projects. MVL is the largest highway
                                     landscaping company in Minnesota, and was the prime contractor on $4.4 mil­
                                     lion in such contracts between 1996 and 2002, as well as numerous subcon­
                                     tracts. Our investigation found that, during that time, MVL invoiced for and
                                     was paid $396,257 through the Federally-funded contracts for work either
                                     billed at other than the prevailing wage rates or for overtime charged, but for
                                     which the MVL employees were not paid. On June 17, 2005, MVL and
                                     Lindstrom were debarred by the Minnesota Department of Transportation for
                                     three years. The Department of Labor is also pursuing Federal debarment
                                     action. Sentencing is pending. The investigation was conducted jointly with
                                     the FBI.


20   Semiannual Report to Congress
                    activities


    FAA Safety Oversight of an Air Carrier Industry in Transition
June 3, 2005
   We reported on FAA’s oversight of the changes network air carriers are mak­
ing in response to financial challenges and the growth of low-cost air carriers.
In the past 6 years, FAA has made progress in implementing risk- based air car­
rier oversight systems, but these systems were not flexible and compre­
hensive enough to permit FAA to adequately monitor the changes
occurring in the industry. Although FAA is facing extraordinary budg­
etary challenges, it is imperative that adequate resources be committed
to air carrier oversight to ensure the continuity of safe operations and
that it have well-planned and well-executed oversight programs.
   We recommended that FAA (1) strengthen its oversight and moni­
toring of its field offices to ensure inspectors conduct their inspections
in a timely and consistent manner; (2) refine its risk assessment, inspec­
tion planning, and data analyses processes so they are more compre­
hensive and flexible; (3) ensure that all its inspectors have the tools and
guidance needed to effectively identify risks, conduct their inspections,
and ensure risks are mitigated; and (4) determine if it can make enough effi­
ciency gains in its operations to sustain the planned cuts of 233 safety inspec­
tors beyond 2005.

       IG Reports on the Classification and Declassification of
            a 9/11 Commission Report of FAA’s Pre-9/11
                   Knowledge of Aviation Threats
June 14, 2005
   In response to a request by Congressmen John Conyers, Jr., James L.
Oberstar, and Henry A. Waxman, ranking members of the Committee on the
Judiciary, the Committee on Transportation and Infrastructure, and the
Committee on Government Reform respectively, and in coordination with the
Department of Justice (DOJ) Office of Inspector General, we investigated
DOT’s role in the classification review of a 9/11 Commission report of the
FAA’s pre-9/11 knowledge of aviation threats, referred to as the FAA mono­
graph. Generated by the 9/11 Commission (but separate from the "9/11




                                                                                   activities   21
                                     Commission Report"), the FAA monograph details a timeline of the hijackings
                                     and contains an analysis of the question of why the civil aviation system failed
                                     to stop the attacks on September 11th through examination of the pre-9/11
                                     world. The Congressmen expressed concern regarding the length of time it
                                     took to deliver a declassified version of the FAA monograph to the National
                                     Archives and Records Administration (NARA), and why it was released pub­
                                     licly only after the presidential election.
                                         We found that FAA completed its review in a timely and responsive manner,
                                     within the timeframes that DOJ requested, concluding that FAA’s actions did
                                     not contribute to the delay in the monograph’s release to NARA. We also
                                     learned, however, that the Transportation Security Administration’s (TSA)
                                     review of the FAA monograph consumed over three months of the approxi­
                                     mate five-month period that passed between the delivery of the FAA mono­
                                     graph to DOJ from the 9/11 Commission and its delivery to NARA on
                                     January 28, 2005.

                                            Report on Consolidation of DOT Accounting Functions
                                     June 17, 2005
                                        We evaluated DOT’s efforts to consolidate its routine accounting functions at
                                     the FAA Enterprise Services Center (Services Center) in Oklahoma City, OK. We
                                     found that both financial and operational benefits will accrue to the Department
                                     from consolidating routine accounting functions of six non-FAA accounting
                                     offices and nine FAA accounting offices at the Services Center. FAA estimated
                                     annual savings of $4.8 million from consolidating its nine accounting offices. We
                                     estimate that DOT could save an additional $2.3 million annually by consolidat­
                                     ing functions of the non-FAA accounting offices. We recommended that DOT
                                     (1) estimate potential cost savings that would result from consolidating routine
                                     accounting functions at the Services Center, (2) continue to work with the
                                     Operating Administrations and the Services Center to complete the consolida­
                                     tion, (3) accumulate reliable data to improve the efficiency of Services Center
                                     operations, and (4) establish financial and operational goals to maximize poten­
                                     tial benefits by streamlining and improving operations. The Office of the
                                     Secretary concurred with the report findings and recommendations.

                                                California Man Sentenced to Jail for Conspiracy
                                                         to Illegally Transport HAZMAT
                                     June 20, 2005
                                       A U.S. District Court judge in Los Angeles, California sentenced Juan
                                     Carlos Landaverde of Whittier, California to 12 months in prison and ordered
                                     him to pay $6,000 for conspiring to transport 2,500 pounds of explosive fire­
                                     works without the required HAZMAT placarding. Landaverde and co-con-


22   Semiannual Report to Congress
                    activities


spirator, Antonio Adame were indicted on the criminal charges in July 2004,
and both men subsequently pleaded guilty. Adame had driven an unplacarded
rental truck containing the explosive fireworks from Nevada to California,
while Landaverde drove a “chase car”. Transportation of dangerous explosives
on the nation’s highways without proper warning signs poses a serious risk to
public safety as well as to emergency personnel who would be responding in
the event of an accident. Adame was sentenced in February 2005 to pay near­
ly $5,000. Both sentences result from a larger task force investigation into
smuggling explosive fireworks into California.

   Former Professor Receives Over Three Years in Prison for
Embezzling Nearly $1 Million from a DOT-funded Research Center
June 29, 2005
   Nabih E. Bedewi, a former George Washington University (GWU) engi­
neering professor and director of the DOT-funded National Crash Analysis
Center (NCAC) in Ashburn, Virginia, was sentenced in U.S. District Court in
Washington, D.C. to serve 38 months in prison. Bedewi was also ordered to
pay $872,221 in restitution and forfeit his $2.29 million home in McLean,
Virginia. On April 13, Bedewi pleaded guilty to a felony theft charge, admit­
ting to embezzling approximately $992,000 between April 2000 and July
2004. Bedewi oversaw several cooperative agreements between GWU and
FHWA, and used bogus invoices, illegal stipends, and inflated or fictitious
expenses whereby NCAC paid fraudulent charges to entities which he or his
wife either owned or controlled. In a separate civil settlement effective in April,
GWU agreed to reimburse the government more than $1.8 million for inade­
quate internal controls and oversight of the cooperative agreements. This was
a joint investigation with the FBI, assisted by the Defense Contract Audit
Agency (DCAA) and FHWA.

       FAA’s En Route Modernization Program Is On Schedule 

          but Steps Can Be Taken To Reduce Future Risks

June 29, 2005
  We issued our report on FAA’s $2.1 billion En Route Automation
Modernization (ERAM) Program — the largest and most complex effort in
FAA’s modernization portfolio. It is designed to replace the hardware and


                                                                                      activities   23
                                     software at facilities that manage high-altitude air traffic. We found that FAA
                                     can take steps now to reduce risk with the multi-billion ERAM effort while the
                                     program is on track. Specifically, we recommended that FAA (1) maximize the
                                     use of fixed-price agreements, (2) withhold incentive payments to the prime
                                     contractor until the system meets the Government’s criteria, (3) defer work on
                                     software development for additional capabilities that have yet to be defined or
                                     priced, (4) examine ways to reduce life-cycle costs by relying on fewer central
                                     computers, (5) bolster security assessments of ERAM by including staff with
                                     operational experience, and (6) update migration plans for protecting critical
                                     assets.

                                                          Aviation Industry Performance
                                     June 30, 2005
                                                      We issued the seventh in a series of periodic updates to our avi­
                                                   ation industry performance report. The report identifies trends
                                                   in aviation demand and capacity, aviation system performance,
                                                   airline finances, and service to small communities. The focus of
                                                   the current edition was to highlight system performance this
                                                   summer, especially in key hub markets where new aircraft fleet
                                                   mixes, expanded low-cost carrier service, and returning demand
                                                   are likely to result in a level of congestion and delays that rivals
                                                   the summer of 2000. The report also highlights the effect of ris­
                                                   ing fuel costs on both network and low-cost carriers. Finally, the
                                                   report notes that air service in the Nation’s smallest communities
                                                   has still not begun to rebound; in fact, it has continued to decline
                                                   while service has gradually increased in larger airports.

                                                Highway-Railroad Grade Crossing Safety Issues
                                     July 21, 2005
                                        The Inspector General testified before the House Railroad Subcommittee
                                     on highway-rail grade crossing (grade crossing) safety issues. The testimony
                                     focused on our ongoing audit to assess the adequacy of the Federal Railroad
                                     Administration’s (FRA) oversight of grade crossing (1) accident reporting to
                                     the National Response Center, (2) accident investigations, and (3) safety regu­
                                     lations enforcement. The testimony highlighted three areas that FRA needs to
                                     address to further improve grade crossing safety: (1) simplifying accident
                                     reporting requirements, (2) developing strategies to increase its involvement in
                                     accident investigations, and (3) strengthening its enforcement of existing safe­
                                     ty regulations. The audit was originally requested by Representatives James
                                     Oberstar and Corrine Brown and Senator Ernest Hollings. Senator Daniel
                                     Inouye joined the original requestors, after Senator Hollings retired.


24   Semiannual Report to Congress
                    activities


               Chicago’s O’Hare Modernization Program
July 21, 2005
   We reported on FAA’s process for reviewing and approving the City of
Chicago’s O’Hare Modernization Program (OMP). We identified two areas
where FAA will need to focus greater attention: (1) verifying that the OMP’s
costs, schedule, and funding sources are realistic, reasonable, and credible and
that any known or reasonably anticipated risks that could affect the Phase 1 and
Phase 2 project milestones are fully disclosed and considered; and (2) redesign­
ing the necessary airspace to realize the benefits of OMP airfield improvements
in reducing flight delays and increasing capacity. Our recommendations address
the specific actions needed from the Agency to verify the financial viability of
the OMP and to redesign the airspace to accommodate it.

    Falsification of FAA Airman Medical Certificate Applications 

                       by Disability Recipients

July 22, 2005
   Our office, the Social Security Administration (SSA)-OIG, and U.S.
Attorney Offices in California, with considerable assistance from FAA’s Western
Pacific Region Flight Surgeon and Chief Counsel offices, conducted an initia­
tive to identify and prosecute egregious cases of certificated pilots who falsified
FAA’s "Application for Airman Medical Certificate" by not disclosing medical
conditions they claimed in obtaining SSA disability benefits. Under this 18­
month initiative, termed "Operation Safe Pilot," criminal charges were pursued
against 48 certificated Northern California pilots who were collecting full dis­
ability benefits for well-documented severe medical conditions (e.g., schizo­
phrenia, drug or alcohol addiction, and disabling heart and back conditions).
In all 48 cases, the individuals failed to disclose their medical conditions to FAA
as required, and FAA’s Regional Flight Surgeon determined that none would
have passed the airman medical examination had the physicians conducting the
examinations on behalf of FAA known about their established disabilities. FAA
has either issued Emergency Revocation Orders or notified those formally
charged that their certificates were being suspended. We recommended that
FAA, working with SSA and other disability benefits providers, expedite devel­
opment and implementation of a strategy for proactively identifying and
addressing similar falsifications that may be occurring in other parts of the


                                                                                      activities   25
                                     country. FAA should also consider revising its Application for Airman Medical
                                     Certificate to require applicants to explicitly identify whether they are receiving
                                     medical disability benefits from any provider.

                                                         Report on Analysis of Cost Savings
                                                        on Amtrak’s Long-Distance Services
                                     July 22, 2005
                                                    We issued a report on cutting costs in Amtrak’s long-distance
                                                 service without eliminating any routes, frequencies, or station
                                                 stops. While sleeper class generates greater revenue per passenger
                                                 than coach class, the net losses associated with sleeper class greatly
                                                 exceed those associated with coach. Our analysis shows that elim­
                                                 inating sleeper cars, dining cars, entertainment, lounge seating,
                                                 checked baggage service, and subsidies for food and beverage serv­
                                                 ice on Amtrak’s long-distance routes could reduce operating loss­
                                                 es between $375 million and $790 million and avoid $395 million
                                                 in planned capital expenditures over the next 5 years.
                                                    We recommended that Amtrak require a thorough analysis of
                                                 costs on long-distance routes and the initiation of pilot projects on
                                                 select routes to test the effect of eliminating sleeper class and its
                                                 associated amenities.

                                                                                                  (Continued on page 29)




26   Semiannual Report to Congress
                              Options for Intercity Passenger Rail



W
            e have testified numerous times since Amtrak’s authorization expired in 2002 that the current model for pro-
            viding intercity rail service is broken. This model provides little incentive for Amtrak to improve its precarious
            financial position. This year, the Inspector General’s testimonies have continued to report on the system’s sta-
tus, with specific focus on Amtrak reform alternatives as a framework for reauthorization.
■ The system continues to suffer operating losses on all but a handful of routes. In FY 1997, operating losses were $797
   million and they have continued to increase, reaching $1.3 billion in FY 2004. As of July FY 2005, operating losses on
   long-distance trains alone were 11 percent higher than the same period a year ago.
■ Amtrak’s debt grew from $1.7 billion in FY 1997 to $4.6 billion in FY 2004. While debt levels have declined slightly in
   the past few years, Amtrak’s annual debt service payments are approaching $300 million.
■ Passenger revenues are down; through July of FY 2005, they were $23 million lower than the same period in FY 2004.
■ Amtrak has an estimated $5 billion backlog of state-of-good-repair investments, and underinvestment is having a vis-
   ible effect on service quality and reliability. Deferred capital investment has led to several system failures in recent years
   and no one knows where or when a critical system failure will occur, but continued deferral increases the risk that it
   may not be too far away.
■ On-time performance continues to deteriorate system-wide, falling from 77 percent in FY 2002 to 70 percent through
   July of FY 2005, with long-distance trains averaging less than 50 percent.

SETTING THE COURSE FOR REFORM
  To turn this situation around, Amtrak needs a comprehensive reauthorization that provides meaningful reforms along
with adequate funding. There are three central themes that will drive successful reform:
■ Improvements in Cost-Effectiveness. Amtrak is the sole provider of intercity passenger rail service. Therefore, it has few
   incentives, other than the threat of budget cuts or elimination, for effective cost control or services delivery. Our recent
   analysis of Amtrak’s long-distance services found potential ways to substantially reduce costs and net operating losses
   without cutting routes, station stops, or frequencies. For example, streamlining amenities and food services could
   reduce net operating losses on these routes by $75 million to $158 million per year. This would also avoid an annual
   average of $79 million in planned capital expenditures for the next 5 years. Amtrak’s Board has indicated that Amtrak
   will be launching a number of pilot projects to
   address these issues.
■ States Need a Larger Voice in Determining
   Service Requirements.     In the current model,
   decisions on service requirements for states are
   made by Amtrak and are not always in the best
   interests of the states served. Intercity passenger
   rail would be better served with more state
   involvement as to where, how, and to what lev-
   els intercity passenger rail service is developed.
   States are in the appropriate position to assess
   how best to meet their transportation needs. As
   states are given more input into services provid-
   ed, they should be asked to provide increased
   operating and investment support.


                                                                                      f o c u s                               27
 ■ Adequate and Stable Federal Funding Is Essential. Federal funding levels
     and state contributions have not been sufficient to subsidize operations,
     address deferred capital needs, and significantly improve service along
     the existing rail network. In the last 2 years, Amtrak has received annu-
     al Federal funding of $1.2 billion. It will require at least $2 billion in
     funding from all sources to begin any meaningful corridor (routes of less
     than 500 miles) development. The policy challenge is determining who
     pays for what portions of the system. Federal funding of up to $1.5 bil-
     lion still would not be sufficient to maintain a 5-year program for restor-
     ing the system to a state of good repair. Projects in the Northeast Corridor (NEC), other corridor services, and long-
     distance routes would continue to be deferred, simply maintaining the limp-along status quo.

 REAUTHORIZATION FOR A NEW DIRECTION
     We presented a framework for reauthorization in testimony earlier this year that incorporates these themes by identi-
 fying six core elements to consider:
 ■ Formula grants can be used for operating expenses, capital maintenance, and capital improvements at the discretion
     of the states without match requirements. This approach provides funds to states that do not have corridor develop-
     ment potential and rely on long-distance trains.
 ■ Restoring the current system to a state of good repair would provide Federal funds with no match required to address
     the backlog of deferred investment and maintenance on the NEC and in other corridors’ fleet and facilities. After this
     has been achieved, capital funds with a reasonable state match would be available for capital maintenance.
 ■ Capital matching grants for development of corridor services would give states the ability to improve and expand
     routes and service on their supported corridor routes through a Federal capital funding program with a reasonable
     state match requirement.
 ■ Resolving the legacy debt issue would give the Secretary the authority to evaluate Amtrak’s debt and to take actions
     that would be advantageous for both intercity passenger rail service and the U.S. Government.
 ■ Setting Federal and state funding at adequate levels will require $2 billion per year; a minimum of $1.5 billion for pro-
     grams to restore the system to a state of good repair and additional funding for new corridor development.
 ■ Resolving ownership of the NEC is important in reauthorization because it is the only rail section owned by Amtrak,
     and at least $4 billion is required to restore it to a state-of-good-repair. The Federal government may decide to take
     on this responsibility, including the debt and possibly the title of assets. While Amtrak could continue as operator, we
     might be in a better position to decide the best use and ownership structure of NEC assets by the end of the reautho-
     rization period.

 MOVING FORWARD
     Clearly the debate on reauthorization has moved forward this year, beyond the recognition that things need to
 change and toward identifying options for reform and restructuring that meet multiple goals and interests. Reaching
 a balance between divergent needs and the costs of providing service is the challenge reauthorization faces. This will
 require new Federal and state-level relationships and partnerships and will involve giving states greater authority and
 control over intercity passenger rail decisions. In order for this to work, a considerably more robust Federal funding
 program for capital with a reasonable state match will be required, as well as additional state contributions.



28                Semiannual Report to Congress
                    activities


   Manager for Michigan Aircraft Parts Manufacturing Company

      Pleads Guilty in Case Involving Nonconforming Parts

July 25, 2005
   Barbara McCoy (also known as Barbara Gibson), a former Quality Assurance
Manager for Anco-Tech, Inc. (ANCO), Dearborn Heights, Michigan, pleaded
guilty in U.S. District Court in Philadelphia, Pennsylvania to four counts of aid­
ing and abetting the issuance of false certificates of conformance on titanium
tubing which was used in the production of V-22 Osprey helicopters. ANCO
manufactured seamless titanium tubing used in various flight-critical and non­
critical military and commercial aerospace applications, including hydraulic sys­
tems. The certificates falsely certified that the tubing had been manufactured
and inspected in accordance with specifications, when required testing and
inspection had not been done. Elaine Slomsky, another Quality Assurance
Manager for ANCO, pleaded guilty in June 2005 to making false statements
by signing false certificates of conformance. These pleas are related to a larger
investigation of ANCO and two additional company officials who were indict­
ed on June 7, 2005 for offenses arising from the manufacture and sale of tita­
nium tubing for use in both military and civilian aircraft. This ongoing inves­
tigation is being conducted with DCIS and NCIS. There have been no report­
ed aircraft accidents or malfunctions attributable to the nonconforming titani­
um tubing.

     Former Montana Airport Director Gets 10 Years in Prison 

           for Embezzling $654,000 in Airport Funds

July 25, 2005
   John Seymour, former director of Missoula International Airport was sen­
tenced in U.S. District Court in Missoula, Montana to 10 years in Montana
State Prison for embezzling $654,000 in airport funds. The sentence stems
from Seymour’s May 2005 guilty plea to four state felony counts and two mis­
demeanor counts of theft of airport funds. Seymour was suspended without
pay in November 2004 and resigned as Missoula International Airport director
in January 2005. Seymour has voluntarily reimbursed the Missoula
International Airport in full.




                                                                                     activities   29
                                       Illinois Company Fined $130,000 and Executive Sentenced to
                                      Prison for Shipping Undeclared Hazardous Materials (HAZMAT)
                                                          on Commercial Aircraft
                                     July 27, 2005
                                              Silesia Flavorings, Inc. (SFI) the U.S. subsidiary of an international fla­
                                          voring extracts company, and its executive vice president, Ortwin Winter,
                                          were sentenced in U.S. District Court in Chicago, Illinois in connection
                                          with the illegal transportation of flammable liquids on a commercial
                                          flight. SFI was fined $130,000, and Winter was sentenced to three
                                          months in prison and fined $5,000. SFI and Winter pleaded guilty in
                                          June 2005 to a felony count of transporting flammable liquids in viola­
                                          tion of HAZMAT regulations, and to a misdemeanor of misbranding
                                          HAZMAT respectively. Winter admitted that, in order to satisfy customer
                                          demand for quick delivery, he encouraged an SFI salesman to place the
                                     flammable liquids in his personal luggage stowed on board the aircraft.

                                           Letter to Representative Oberstar Regarding FAA Actions
                                                on Air Carriers’ Use of Aircraft Repair Stations
                                     July 27, 2005
                                        We issued a letter on the results of our review of the Federal Aviation
                                     Administration’s (FAA) progress in implementing recommendations from
                                                our July 2003 audit report on air carriers’ use of repair stations.
                                                The review was requested by Representative James Oberstar,
                                                Ranking Member of the House Committee on Transportation and
                                                Infrastructure. Overall, we believe that FAA’s proposed actions are
                                                good, but we are concerned with its planned timetable for comple­
                                                tion. As of September 30, 2005, FAA had fully implemented one
                                                of our nine recommendations. FAA continues to take actions on
                                                the remaining eight. As air carriers work to cut costs, their use of
                                                contract maintenance facilities is increasing. Since January 2005, at
                                                least three major airlines have announced their plans to decrease in­
                                                house maintenance staff and increase use of repair stations. In our
                                     view, FAA needs to re-evaluate its timetable and, if needed, its plans to deter­
                                     mine if improvements to its repair station oversight process can be expedit­
                                     ed. We note that reports from both the House and Senate Subcommittees on
                                     Appropriations show restored funding for FAA aviation safety inspector
                                     staffing; the funding was reduced in FY 2005. This should provide addition­
                                     al support for repair station oversight.




30   Semiannual Report to Congress
                   activities


    Fourth Defendant Pleads Guilty in Colorado DMV Scandal

  Involving the Unlawful Sale of Fraudulent Commercial Driver’s

                         Licenses (CDLs) 

August 3, 2005
   Virginia Villegas, a former driver’s license examiner for the Colorado
Department of Revenue, Division of Motor Vehicles (CO-DMV) pleaded
guilty in the U.S. District Court in Denver to one count of fraud in connec­
tion with identification documents. Villegas admitted to facilitating the
unlawful sale of Colorado driver licenses, including CDLs, to illegal aliens.
Another CO-DMV employee, Janet J. Gonzales, and two middlemen in the
fraud scheme, Juan Pablo Beltran and Juan Francisco Alderete-Diaz, pleaded
guilty in June and July 2005 to similar charges. Unqualified drivers pose a
safety threat to all travelers on our nation’s roadways. Following retesting,
CO-DMV revoked over 100 licenses issued by Villegas and Gonzales. Beltran
was sentenced on September 22, 2005, to 65 days in prison, and sentencing
is pending for the other three defendants. The ongoing investigation is being
conducted jointly with the Social Security Administration, the Department of
Homeland Security - Immigration and Customs Enforcement, the U.S.
Postal Inspection Service, FBI, and the Colorado Department of Revenue,
with assistance from FMCSA.

       California Interstate Auto Transport Broker Ordered to 

        Pay $95,912 to Reimburse Nearly 190 Victims of an 

                  Internet-based Auto Moving Scam 

August 15, 2005
   Billy D. Southerland, Anderson, California, was sentenced in U.S. District
court in Sacramento, California to 67 months in Federal prison and ordered
to pay a total of $95,912 in restitution to 189 victims of an automobile trans­
port “bait and switch” scheme. In March 2005, Southerland was found
guilty on three felony counts of mail and wire fraud. Customers usually paid
a $200 deposit and a portion of the quoted price for moving their cars from
one city to another. Southerland then failed to perform, and responded to




                                                                                  activities   31
                                     customer complaints by requiring additional money. Customers who
                                     attempted to cancel their auto moves or contact the Better Business Bureau
                                     were refused a refund of some or all of the money paid. Based on trial evi­
                                     dence, customers were defrauded of $604,585 from December 2002
                                     through November 2003. The case was jointly investigated with the Shasta
                                     County District Attorney’s Office Bureau of Investigation.

                                     Connecticut Concrete Manufacturer Ordered to Pay $500,000 for
                                     Falsely Certifying that Products Used on a Major Highway Project
                                                          Met Contract Specifications
                                     August 23, 2005
                                         United Concrete Products, Inc. (UCPI) of Wallingford, Connecticut, was
                                     sentenced in U.S. District Court in Bridgeport, Connecticut, to pay
                                     $499,000 in restitution and fined $1,000 for making false statements in con­
                                     nection with concrete products supplied to various prime contractors on the
                                     $500 million Interstate 95 Bridgeport corridor project. Connecticut
                                     Department of Transportation (ConnDOT) specifications for concrete
                                     drainage assemblies, including catch basins, require steel supporting rods
                                     imbedded in the concrete. Investigation disclosed that from May 1999
                                     through June 2002, UCPI submitted false certificates of conformance for 68
                                     concrete drainage assemblies which did not meet those specifications. UCPI
                                     pled guilty in May 2005 to making false statements on the certificate of con­
                                     formance associated with a shipment of concrete catch basins in October
                                     2001. UCPI was initially suspended by ConnDOT in January 2002; follow­
                                     ing a period of quality control supervision by ConnDOT the suspension was
                                     lifted on October 13, 2005. The case was jointly investigated with the FBI,
                                     with assistance from ConnDOT and FHWA.

                                                   Audit of the NTSB Purchase Card Program
                                     August 23, 2005
                                        We issued our final report on the National Transportation Safety Board’s
                                     (NTSB) Purchase Card Program. We found that NTSB’s internal controls
                                     over purchase card use have improved appreciably when compared with the
                                     Board’s previous purchasing system. However, we found that these controls
                                     were not effectively implemented to safeguard against improper use of the
                                     purchase cards. We recommended that NTSB enhance management review
                                     of purchase card transactions, remove separated cardholders’ accounts, insti­
                                     tute annual program reviews and employee training requirements, and
                                     improve record keeping. Management generally concurred with our findings
                                     and recommendations and is implementing corrective actions.



32   Semiannual Report to Congress
                    activities


     Quality Control Review of the Report on Controls over the 

            Delphi Financial Management System, DOT

September 2, 2005
   We issued our quality control review of the Report on Controls Over the
DOT’s Delphi Financial Management System. Clifton Gunderson, LLP, an
independent auditor, completed the report on controls over the DOT
Enterprise Service Center’s Delphi system, making 12 recommendations to
improve system security controls in the areas of security administration, logical
access, and physical access. We agreed with Clifton Gunderson that strength­
ening the design and operational effectiveness in these control objective areas
will further enhance Delphi Financial Management System operations.
Management concurred with the recommendations and initiated corrective
actions.

     Owner and Two Foremen of Interstate Moving Company

        Sentenced to Over 14 Years in Jail and Ordered to 

   Pay $670,000 in a Household Goods Moving Scam Involving 

                      Over $1 Million Loss 

September 2, 2005
    Erik Deri, former owner of Nationwide Moving Systems,
LLC (Nationwide), Woodinville, Washington, and Yosef
Nahum, an ex-foreman at Nationwide, were sentenced on April
1, 2005, in U.S. District Court in Tacoma, Washington, to seven
years and five years in prison, respectively, for their roles in a
scheme to defraud Nationwide customers. On April 1, 2005,
Yuval Derei, another Nationwide ex-foreman involved in the
scheme, was sentenced to 30 months in jail. In December 2004,
all the defendants were convicted by jury on charges of extortion
and conspiracy in connection with the scheme to provide low­
ball moving estimates and then hold goods hostage until cus­
tomers paid inflated prices. The case involved over 50 customers,
with Nationwide profiting in excess of $1 million. On September 2, 2005, a
U.S. District Court judge in Tacoma ordered Deri to pay $400,000, while
Nahum and Derei were ordered to pay $200,000 and $70,000 respectively for


                                                                                    activities   33
                                     their roles in the scheme. The investigation was conducted jointly with the
                                     Washington State Attorney General’s office, with assistance from FMCSA.

                                          Quality Control Review of Audited Financial Statements for
                                                  FY 2004 and FY 2003, Highway Trust Fund
                                     September 7, 2005
                                                We reissued our quality control review of the revised FY 2004
                                             Highway Trust Fund financial statements, audited by Clifton
                                             Gunderson LLP, of Calverton, Maryland. The revision was necessary
                                             because the Federal Highway Administration (FHWA) disclosed an
                                             error in the Statement of Budgetary Resources as of September 30,
                                             2004, resulting in a $2.966 billion understatement of previously
                                             reported total budgetary resources. The FY 2004 Highway Trust Fund
                                             financial statements, notes, and supplemental information have been
                                             corrected, and Clifton Gunderson reissued and dual-dated (November
                                             8, 2004, and June 30, 2005) its audit report. The report concluded
                                     that the financial statements including the accompanying notes presented
                                     fairly, in all material respects, the Trust Fund’s assets, liabilities, and net posi­
                                     tion. In our opinion, the work performed by Clifton Gunderson complied
                                     with applicable standards.

                                       Owner of Two Pennsylvania Engineering Companies Gets Three
                                       Years in Jail and Ordered to Pay Over $320,000 for Leading an
                                                            Airport Billing Scam
                                     September 12, 2005
                                        John Vitillo, owner of Vitillo Corporation and Vitillo Engineering, Inc.,
                                     Reading, Pennsylvania, was sentenced in U.S. District Court in Philadelphia,
                                     Pennsylvania to 36 months in prison and 24 months supervised release, and
                                     ordered to pay $317,760 in restitution plus a $3,600 special assessment.
                                     Vitillo’s two companies were contractors for the Reading Regional Airport
                                     Authority (RRAA), a grantee under FAA’s Airport Improvement Program.
                                     In November 2004, Vitillo and his two companies were convicted of con­
                                     spiracy and theft of federal airport funds. Vitillo, or others acting at his direc­
                                     tion created fraudulent invoices and records (including employee time cards
                                     with inflated hours), resulting in overpayments totaling $317,760 made to
                                     Vitillo Corporation and Vitillo Engineering, Inc., by RRAA for work on
                                     projects such as runway reconstruction. On May 25, 2005, FAA suspended
                                     Vitillo, Vitillo Corporation, and Vitillo Engineering, Inc., from doing busi­
                                     ness with the government, and they have been referred to FAA for debar­
                                     ment action. This investigation was conducted jointly with the Federal
                                     Bureau of Investigation (FBI).

34   Semiannual Report to Congress
                    activities

 Pennsylvania Company Owner Jailed 7 Years and Ordered to Pay

  Over $652,000 for Disadvantaged Business Enterprise (DBE)

                  Fraud and Other Schemes

September 19, 2005
   Shamsud-din Ali, owner of Keystone Information and Financial Services
(KIFS) was sentenced in U.S. District Court in Philadelphia, Pennsylvania, to 7
years and 3 months in prison and ordered to pay $365,439 in restitution and
$286,646 in forfeitures of assets. In June 2005, Ali was found guilty on 22 rack­
eteering and fraud charges relating to an airport concession as well as non-DOT
contracts. The five-year cellular phone tower concession contract at the
Philadelphia International Airport (valued over $1 million and containing DBE
requirements subject to FAA regulation) was awarded by the City of Philadelphia
in August 2001 to AAT Communications Corp. (AAT). AAT subcontracted with
KIFS, a DBE. Ali received $1,700 a month from Richard Meehan, a former AAT
manager, even though Ali performed no services on the contract. Ali kicked back
$500 of each payment to Meehan for his assistance in creating and maintaining
the false appearance that KIFS was the minority-owned subcontractor, and with
developing other subcontract opportunities for KIFS that permitted the firm to
receive commissions without performing any work. Meehan pled guilty in March
2005, admitting to receiving a total of $7,000 in kickbacks from Ali. He was sen­
tenced on June 30, 2005, to three years’ probation and fined $10,000. Potential
debarment of KIFS, to exclude the firm from contracting with the government
for a specified period, is under consideration by FAA. The investigation was con­
ducted jointly with the FBI and other agencies.

       Reauthorization of Intercity Passenger Rail and Amtrak
September 21, 2005
   The Inspector General testified before the Railroads Subcommittee of the
House Transportation and Infrastructure Committee regarding Amtrak. He
testified that Amtrak needs new direction and adequate funding from Congress
because (1) the current model does not provide adequate incentives for Amtrak
to provide cost-effective service; (2) state-of-good-repair needs are not being
adequately addressed; and (3) states have insufficient leverage in determining
service delivery options, in part because Amtrak, not the states, receives Federal
rail funds. The IG also testified that reauthorization should focus on improv­
ing mobility in corridors (routes less than 500 miles) around the country, not


                                                                                     a c t i v i t i e s   35
                                     just in the Northeast Corridor and in restructuring long-distance services
                                     (routes greater than 500 miles) to complement corridor services.

                                                   Quality Control Review of KPMG’s Notice of
                                                         Finding and Recommendation
                                     September 22, 2005
                                        We issued a final report on Financial Reporting Process at FAA’s Enterprise
                                     Service Center. FAA has begun consolidating accounting operations from
                                     regional offices to the Enterprise Service Center (ESC) in Oklahoma City,
                                     Oklahoma. As part of the audit of FAA’s Fiscal Year 2005 financial statements,
                                     KPMG LLP, an independent contractor, reviewed FAA’s Accounting
                                     Operations Consolidation Plan. KPMG identified issues that need to be
                                     addressed and made eight recommendations to improve ESC’s reporting rela­
                                     tionships and organizational structure. The FAA’s and DOT’s CFO’s agreed
                                     with the KPMG recommendations.

                                      South Dakota Trucking Firm and President Ordered to Pay Over
                                              $325,000 in Driver Logbook Falsification Case
                                     September 22, 2005
                                        Action Carrier, Inc., Sioux Falls, South Dakota, and its president, Michael L.
                                     Walsh, were each sentenced in U.S. District Court in Sioux Falls following their
                                     June 7, 2005, guilty pleas. The corporation pleaded to a felony charge of caus­
                                     ing a truck driver to falsify logbook entries in order to conceal violations of
                                     FMCSA hours of service regulations, and Walsh pleaded to a misdemeanor
                                     charge of obstruction of justice. Action Carrier was fined $200,000 and Walsh
                                     was ordered to pay $126,488 in restitution and fined $2,000. Both Action
                                     Carrier and Walsh were sentenced to five years probation, with the first six
                                     months of Walsh’s probation designated for home confinement. The case was
                                     investigated jointly with the FBI, with assistance from FMCSA.

                                      Independent Accountant’s Report on the Application of Agreed-
                                         Upon Procedures: Selected Personnel-Related Cost Items
                                     September 27, 2005
                                         We reported the results of our review of selected personnel-related cost items
                                     during Fiscal Year 2005. We performed limited procedures that were agreed to
                                     by the Inspector General and Chief Financial Officer of the U.S. Office of
                                     Personnel Management (OPM). We performed these procedures solely to
                                     assist OPM in assessing the reasonableness of retirement, health benefits, and
                                     life insurance withholdings and contributions, as well as enrollment informa­
                                     tion submitted via the Semiannual Headcount Report.


36   Semiannual Report to Congress
                   activities

         Audit of the Management of Land Acquired Under 

               Airport Noise Compatibility Programs

September 30, 2005
   We reported on FAA’s management of airport noise land. We
found that each of the 11 airports in our review have Airport
Improvement Program (AIP)-funded noise land that either is no
longer required for such purposes or does not have a documented
need for airport development. We also found that FAA program
oversight and guidance need to be strengthened. We recommend­
ed that FAA have all airports with AIP-funded noise land (1)
implement written, FAA-approved plans for disposing of noise
land that is no longer needed for such purposes or for airport
development, (2) either return the proceeds from any dispositions
to the Trust Fund or reinvest them in other FAA-approved noise
mitigation projects at the airports, and (3) make disposal of
unneeded noise land a high priority and maintain sustained sur­
veillance of such land.

   Financial Policies and Procedures at the George Washington

             University National Crash Analysis Center

September 30, 2005
    We issued our final report on George Washington University’s (GWU) and
FHWA’s corrective actions taken as a result of financial misconduct that
occurred at its National Crash Analysis Center. About $1.6 million of improp­
er or fraudulent payments occurred on cooperative agreements between
FHWA and GWU because the principal investigator used three businesses he
controlled to submit unsupported charges. The fraud was not detected due to
inadequate internal controls at GWU and inadequate oversight by FHWA.
GWU has reviewed the Center and is implementing recommendations made in
our draft report on improving controls. Additionally, FHWA is strengthening
its procedures for administering research grants and agreements and has inten­
sified its monitoring of the agreement and is recommending that GWU be
reinstated to the agreement. We support FHWA’s decision, provided that it
keeps up its intensified monitoring of the agreement until all of GWU’s cor­
rective actions are implemented.



                                                                                 a c t i v i t i e s   37
                                                             Midway Atoll Cost Sharing
                                     September 30, 2005
                                        We reported on cost sharing arrangements for the airfield on Midway Atoll.
                                     FAA is responsible for ensuring the continued operation of Midway Island’s air­
                                     field, which is owned by the Department of the Interior. We found that the
                                     agencies need to work together to put a support contract in place that both
                                     agencies can reasonably afford. They also need to agree to a cost-sharing agree­
                                     ment for activities located on Midway that is in accordance with good cost
                                     accounting principles and to agree to a method for collecting reimbursements
                                     from other agencies.

                                        Former Washington, D.C. Transportation Official Ordered to
                                                     Pay $100,000 in Bribery Case
                                     September 30, 2005
                                        Wilhelm DerMinassian, former Associate Director of the District of
                                     Columbia Department of Transportation’s (DC-DOT) Traffic Services
                                     Administration was sentenced to 30 months in prison and ordered to pay
                                     $100,000 in fines and restitution for receiving gratuities in connection with
                                     subverting the competitive process on Federally funded contracts. In April
                                     2005, DerMinassian pled guilty to one count of wire fraud and one count of
                                     receiving gratuities. Charges were filed in April 2005 against DerMinassian
                                     and Dunn Engineering and Associates, P.C. (Dunn), Westhampton, New
                                     York. A Dunn official paid over $1,000 in hotel charges on behalf of
                                     DerMinassian while he was on official government travel in return for favor­
                                     able treatment on a 5-year, $17.5 million Integrated Traffic Management
                                     System contract Dunn held with DC-DOT. DerMinassian also solicited and
                                     received about $20,000 in cash and SUV leases from another contractor in
                                     connection with his administration of a $12.9 million contract. Dunn and
                                     DerMinassian have been referred to FHWA for debarment proceedings. The
                                     ongoing investigation is being conducted jointly with the Department of
                                     Justice (DOJ) and the FBI.




38   Semiannual Report to Congress
          other

     accomplishments


T
             his section extends beyond the legal reporting requirements of
             the Inspector General Act to highlight other accomplishments
             and contributions by Office of Inspector General (OIG) staff.
             These accomplishments are part of our statutory responsibilities
to (1) review existing and proposed legislation and regulations; (2) respond
to congressional and departmental requests for information; and (3) review
policies for ways to promote effectiveness and efficiency and detect and pre­
vent fraud, waste, and abuse.

DOT OIG INVESTIGATION SPURS FAA TO DENY $14.2 MILLION
CLAIM
   In July 2005, FAA denied a contractor’s $14.2 million claim for monetary
damages. This occurred after an OIG congressional investigation into
alleged misconduct by an FAA contracting officer’s technical representative
(COTR) at the FAA William J. Hughes Technical Center. The contract
"Claim for Damage, Injury or Death" was filed in April 2005. It alleged that
a former COTR and others at the FAA destroyed the contractor’s opportu­
nities and reputation and that the contractor has and will continue to suffer
considerable damages.

NASA PEER REVIEW
   In July 2005, we issued a report on our peer review of the investigative
function of the OIG for the National Aeronautics and Space
Administration (NASA) for the period ended August 31, 2004. The
peer review was a joint project between our Office of Investigations
and Office of Quality Assurance Reviews and Internal Affairs. The
review was conducted for the purpose of reporting whether the
NASA OIG’s system of internal safeguards and management pro­
cedures was in conformance with the President’s Council on
Integrity and Efficiency, the Executive Council on Integrity and
Efficiency Quality Standards for Investigations, and the Attorney
General Guidelines for Office of Inspectors General with Statutory Law
Enforcement Authority. The NASA Inspector General agreed to imple­
ment our proposed recommendations.




                                                                                other accomplishments   39
                                     OVERSIGHT EFFORTS FOR HURRICANE RELIEF AND RECOVERY
                                     ACTIVITIES
                                                During the response and recovery efforts following Hurricane
                                             Katrina, the OIG deployed special agents to Louisiana and
                                             Mississippi. OIG agents provided security for FAA personnel
                                             repairing flight navigational aids in Gulfport and New Orleans
                                             and for two Maritime Administration ships at the Port of New
                                             Orleans. OIG special agents also provided security for senior
                                             Office of the Secretary staff surveying the damaged region and an
                                             Amtrak train carrying evacuees from New Orleans. The OIG is
                                             planning to conduct a series of audits and investigations of DOT’s
                                             relief and recovery activities, including on-site reviews in the Gulf
                                             States, and will work with other Federal, state, and local agencies
                                             to prevent fraud, waste, and abuse, and detect and prosecute
                                             fraud.




40   Semiannual Report to Congress
         charts & tables


Summary of Performance
Office of Inspector General
April 1, 2005–September 30, 2005

Reports issued                                   24

Recommendations Issued                           89

Congressional Testimonies                        11

Total financial recommendations    $   1,303,829,596

  — that funds be better used      $   1,302,600,000

  — that questioned costs          $      1,229,596




                                                       c h a r t s   &   ta b l e s   41
                                     INVESTIGATIONS

                                     Judicial and Administrative Actions
                                     April 1, 2005–September 30, 2005

                                     Employee Terminations                                                     4

                                     Employee Suspensions                                                      2

                                     Reprimand                                                                 7

                                     Resignation/Retirement                                                    4

                                     Counseling                                                                2

                                     Debarment/Suspension                                                     16

                                     Decertified                                                               1

                                     Federal funding terminated/reduced                                        5

                                     Certificate/License Suspended/Revoked/Terminated                         13

                                     Indictments                                                             179

                                     Convictions                                                             146

                                     Years Sentenced                                                          73

                                     Years Probation                                                         213

                                     Years Supervised Release                                                 96

                                     Hours of Community Service                                             2420

                                                                          Financial Impact
                                     Fines                                                              $2,727,191

                                     Restitution/Civil Judgments                                        $7,521,292

                                     Federal Recoveries                                                 $3,677,869

                                     Administrative Recoveries                                         $19,379,807

                                     State Recoveries                                                     $75,000

                                     Total                                                            $33,381,159




                                     D
                                              uring the 6 month period covered by this report, 111 cases were
                                              opened and 123 were closed, leaving a pending caseload of 554. In
                                              addition, 236 individuals/companies were referred for prosecution,
                                     207 were accepted for prosecution, and 37 were declined. As of September 30,
                                     2005, 51 cases were pending before prosecutors.

42   Semiannual Report to Congress
Profile of All Pending Investigations
As of September 30, 2005
                                                                                             Types of Cases

                                                            Number      Contract/    Employee      Aviation   Motor Carrier
                                                            of Cases   Grant Fraud    Integrity     Safety       Safety     Hazmat          Other

Operating Administration

Federal Aviation Administration                               205           29          67            96           0           8              5
Federal Highway Administration                                144          131           4            0            0           0              9
Federal Railroad Administration                                12           3            1            0            0           4              4
Federal Transit Administration                                 33           30           2            0            0           0              1
Maritime Administration                                        7            4            1            0            0           0              2
Federal Motor Carrier Safety Administration                    99           3            6            0           61          22              7
Office of the Secretary                                        12           4            4            0            0           0              4
Pipeline and Hazardous Materials Safety Administraion          26           0            0            0            0          26              0
Research and Innovative Technologies Administration            3            2            1            0            0           0              0
National Highway Traffic Safety Administration                 12           3            5            0            1           0              3
St. Lawrence Seaway Development Corporation                    1            0            1            0            0           0              0

Totals                                                        554          209          92           96           62          60             35
Percent of Total:                                            100%          38%         17%          17%          11%         11%             6%




Application of Investigative Project Hours by Priority Area
April 1, 2005–September 30, 2005
                                                                                                                             Hazmat 6%


                                                                                                                             Motor Carrier
                                                                                                                             Safety and Fraud 13%




                                 Contract/Grant Fraud 37%                                                                    Aviation Safety 13%




                                                                                                                             Employee Integrity 16%

                                               Other 17%



Note: May not equal 100 percent due to rounding.


                                                                                                   c h a r t s    &    ta b l e s                  43
Status of Unresolved Investigations Recommendations
April 1, 2005–September 30, 2005
  Associated

   Operating 

 Administration                                         Recommendation(s)                                                            Status


                                 For Semiannual Report Period of October 1, 2004–March 31, 2005

       FAA	       That FAA ensure its Dallas/Forth Worth (DFW) Terminal Radar Approach Control facility         Working with FAA to resolve open issues
                  complies with national policy for investigating and reporting operational errors; initiate
                  close oversight and appropriate administrative actions.

                                For Semiannual Report Period of April 1, 2005–September 30, 2005
       FAA	       That FAA take appropriate administrative action, to include requiring restitution, for        Working with FAA to resolve open issues
                  losses associated with unauthorized transactions made by an FAA employee using a
                  Government-issued purchase card and travel card.

     OST/OCIO	    That OCIO account for all missing invoices and review costs for reasonableness on an          Working with OST/OCIO to resolve open issues
                  inappropriately expanded and inadequately managed subcontract for consulting services.

     OST/OCIO	    That OCIO review other contracts and task orders for deficiencies in award and                Working with OST/OCIO to resolve open issues
                  oversight (e.g., excessive numbers/dollar value of modifications or modifications
                  finalized after performance) with corrective action taken on those found.



       RITA	      That RITA (a) disallow all or part of the matching contributions of a university [a grantee   Working with RITA to resolve open issues
                  under RITA's University Transportation Center (UTC) Program] for building construction
                  costs misrepresented by the university as a "matching asset" under the grant; and (b)
                  that RITA recoup the corresponding grant funding or require the university to provide
                  appropriate matching contributions.


       RITA	      That RITA request that the Department of Health and Human Services review the                 Working with RITA to resolve open issues
                  university's matching contributions in its next scheduled audit of the university.


       RITA	      That RITA develop and disseminate clear guidelines for determining if matching                Working with RITA to resolve open issues
                  contributions under the UTC Program comply with OMB Circular A-110 and 49 CFR 19.


       FAA	       That FAA (a) work with the Social Security Administration and other disability benefits       Working with FAA to resolve open issues
                  providers to develop a strategy to (i) identify certificated pilots nationwide who are
                  receiving medical disability benefits from any provider, and (ii) determine whether the
                  documented medical conditions of those disability recipients would disqualify them
                  from maintaining their Airman Medical Certificates; and (iii) take appropriate certificate
                  enforcement action where falsifications are found.


       FAA	       That FAA consider revising its Application for Airman Medical Certificate to require          Working with FAA to resolve open issues
                  applicants to explicitly identify whether they are receiving medical disability benefits
                  from any provider.




44                 Semiannual Report to Congress
Application of Investigative Project Hours by Operating Administration
April 1, 2005–September 30, 2005
                                                                                                                                                            Other 2%
                                                                PHMSA 2%
                                                                                                                                                            FRA 3%
                                                                                                                                                            FTA 4%


                                                                  FAA 31%


                                                                                                                                                            OST 14%




                                                                                                                                                            FMCSA 17%
                                                                FHWA 27%




Completed OIG Reports
April 1, 2005–September 30, 2005
(Dollars in Thousands) Estimated Amounts*

                                                              Number of                 Number of                  Questioned             Funds to Be Put
Type of Review                                                 Reports               Recommendations                Costs**                to Better Use
Internal Audits
— Program/Functional                                               11                          57                            $0               $327,600,000
— Chief Financial Officer
Financial Statements                                                3                          20                            $0                            $0
Other OIG Reports***                                                1                           2                            $0               $975,000,000

Total Internal Audits and Reports                                  15                          79                           $0            $1,302,600,000
Grant Audits
— Audits of Grantee Under Single Audit Act                          9                          10                 $1,229,596                               $0
Totals                                                             24                         89                 $1,229,596              $1,302,600,000

* The dollars shown are the amounts reported to management. The actual amounts may change during final resolution.
** There were no recommendations for unsupported costs during the reporting period.
*** These reports do not meet generally accepted Government Auditing Standards.
Department of Transportation programs and operations are primarily carried out by the Department's own personnel and recipients of Federal grants. Audits by
DOT's Office of Inspector General, as a result, generally fall into three categories: internal audits of Departmental programs and operations, audits of grant recipi-
ents, and other OIG reports. The table above shows OIG's results in the three categories for the 6 months covered by this report.



                                                                                                               c h a r t s         &    ta b l e s                       45
OIG Reports with Recommendations That Questioned Costs
April 1, 2005–September 30, 2005
(Dollars in thousands)
                                                                     Number of             Number of               Questioned
                                                                      Reports           Recommendations              Costs*
Reports
A     For which no management decision had been made
      by the start of the reporting period                              26                    35                    $29,702
B     Which were issued during the reporting period                      7                     8                      $1,230

Totals (A+B)                                                           33                     43                   $30,932

C     For which a management decision was made during
      the reporting period                                              13                    18                    $18,619
      (i) dollar value of disallowed costs**                             6                     6                         $345

      (ii) dollar value of costs not disallowed**                       10                    15                    $18,274
D     For which no management decision had been made
      by the end of the reporting period                                20                    25                    $12,312***

* There were no recommendations for unsupported costs during the reporting period.
** Includes reports and recommendations where costs were both allowed and disallowed
*** Total affected by rounding




OIG Reports with Recommendations That Funds Be Put to Better Use

April 1, 2005–September 30, 2005
(Dollars in thousands)
                                                            Number of               Number of             Funds to Be Put
                                                             Reports             Recommendations           to Better Use
Reports
A For which no management decision had been
  made by the start of the reporting period                      5                      7                     $ 969,810
B Which were issued during the reporting period                  4                      5                    $ 1,302,600

Totals (A+B)                                                     9                     12                 $ 2,272,410

C For which a management decision was made
  during the reporting period                                    3                      3                     $ 284,300
     (i) dollar value of recommendations that were
     agreed to by management *                                   3                      3                     $ 284,300
     (ii) dollar value of recommendations that were
     not agreed to by management *                               0                      0                           $0

D For which no management decision had been made
  by the end of the reporting period                             6                      9                    $ 1,988,110


* Includes reports and recommendations where costs were both allowed and disallowed.



46                     Semiannual Report to Congress
OIG Reports Recommending Changes for Safety, Economy or Efficiency

April 1, 2005–September 30, 2005
                                                                        Number of                Number of
                                                                         Reports              Recommendations
Reports
A    For which no management decision had been
     made by the start of the reporting period                               32                       106

B    Which were issued during the reporting period                           15                        76

Totals: (A+B)                                                               47                        182

C    For which a management decision was made
     during the reporting period*                                            19                        64

D    For which no management decision had been made
     by the end of the reporting period*                                     31                       118



* Includes reports where management both made and did not make a decision on recommendations.




Management Decisions Regarding OIG Recommendations
April 1, 2005–September 30, 2005
(Dollars in thousands)
                                                      Number of               Number of                     Questioned         Funds to Be Put
                                                       Reports             Recommendations                    Costs*            to Better Use
Description
Unresolved as of 04/01/2005                                51                       148                       $29,702             $969,810
Audits with Findings During Current Period                 21                        89                        $1,230            $1,302,600
Total to be Resolved                                      72                       237                       $30,932           $2,272,410
Management Decisions:
— Audits Prior Period‡                                     19                        35                       $18,619             $199,000
— Audits Current Period‡                                    9                        50                             $0              $85,300
Total Resolved                                            28                        85                       $18,619             $284,300
Aging of Unresolved Audits: **
Less than 6 mos. old                                       14                        39                        $1,230            $1,217,300
— 6 mos.–1 year                                            14                        44                        $4,788                     $0
— 1 year–18 mos.                                           7                         11                        $5,558                  $2,310
— 18 mos.–2 years                                           4                        33                            $356           $547,500
— Over 2 years old                                          9                        25                            $381           $221,000
Unresolved as of 09/30/05                                 48                       152                       $12,312***         $1,988,110

* There were no recommendations for unsupported costs during this reporting period.
‡ Includes reports and recommendations where costs were both allowed and disallowed.
** Considered unresolved if management decisions have not been made on all report recommendations.
*** Total affected by rounding
                                                                                                     c h a r t s     &    ta b l e s             47
Office of Inspector General Published Reports
April 1, 2005–September 30, 2005
     Report       Date                                             Title                                                   Focus of Report/
                                                                                                                          Recommendations
FEDERAL AVIATION ADMINISTRATION
Internal Audits: Program/Functional–7 reports
AV-2005-059     05/13/05              Airspace Redesign Efforts Are Critical to Enhance Capacity But Need      Actions needed to better coordinate airspace
                                      Major Improvements                                                       redesign efforts and make them more cost
                                                                                                               effective

AV-2005-060     05/26/05              Controller Staffing: Observations on FAA's 10-Year Strategy for the      FAA controller staffing plan needs to identify
                                      Air Traffic Controller Workforce                                         staffing needs by location and total costs

AV-2005-061     05/26/05              Status of FAA's Major Acquisitions: Cost Growth and Schedule             Cash flow requirements to complete major
                                      Delays Continue to Stall Air Traffic Modernization                       acquisitions need to be determined

AV-2005-062     06/03/05              Safety Oversight of an Air Carrier Industry in Transition                Work remains to refine and implement data-
                                                                                                               driven oversight systems

AV-2005-066     06/29/05              FAA's En Route Modernization Program is on Schedule But Steps            Put $83,000,000 to better use
                                      Can Be Taken to Reduce Future Risks

AV-2005-067     07/21/05              Chicago's O'Hare Modernization Program                                   Greater attention needed on verifying mod-
                                                                                                               ernization costs, schedule, funding sources,
                                                                                                               and redesigning airspace

AV-2005-078     09/30/05              Management of Land Acquired Under Airport Noise Compatibility Programs   Put $242,300,000 to better use

Grant Audits: Audits of Grantee Under Single Audit Act–4 Reports
QC-2005-058     05/12/05              American Samoa Government                                                $326,767 questioned
QC-2005-063     06/06/05              City of St. Louis, Missouri                                              Improve grantee oversight
QC-2005-070     08/23/05              City of Midland, Texas                                                   $154,000 questioned
QC-2005-074     08/31/05              Miami-Dade County Aviation Department, Florida                           $417,738 questioned

FEDERAL HIGHWAY ADMINISTRATION
Internal Audits: Program/Functional–1 report
FI-2005-080    09/30/2005             Actions to Prevent Fraud on Cooperative Agreements with Universities     Continue intensive monitoring procedures
                                                                                                               and improve oversight
Grant Audits: Audits of Grantee Under Single Audit Act–2 Reports
QC-2005-056     05/12/05              Walker River Paiute Tribe, Nevada                                        $20,656 questioned
QC-2005-073     08/30/05              Commonwealth of Kentucky                                                 $65,129 questioned

FEDERAL TRANSIT ADMINISTRATION
Grant Audits: Audits of Grantee Under Single Audit Act–2 Reports
QC-2005-069     07/26/05              Chicago Transit Authority, Illinois                                      Improve grantee oversight
QC-2005-071     08/23/05              City of Denton, Texas                                                    $35,576 questioned

NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION
Grant Audits: Audits of Grantee Under Single Audit Act–1 Report
QC-2005-065     06/22/05              State of Georgia                                                         $209,730 questioned




48              Semiannual Report to Congress
   Report          Date                                      Title                                                    Focus of Report/
                                                                                                                     Recommendations
NATIONAL RAILROAD PASSENGER CORPORATION
Other Internal OIG Reports–1 Report
CR-2005-068     07/22/05           Analysis of Cost Savings on Amtrak's Long-Distance Services            Put $975,000,000 to better use

NATIONAL TRANSPORTATION SAFETY BOARD
Internal Audits: Program/Functional–1 Report
FI-2005-072     08/23/05           Purchase Card Program                                                  Improvements made, but oversight and controls
                                                                                                          guidance not effectively implemented
OFFICE OF THE SECRETARY OF TRANSPORTATION
Internal Audits: Program/Functional–2 Reports
FI-2005-064     06/17/05           Consolidation of DOT Accounting Functions                              Put $2,300,000 to better use

FI-2005-079     09/30/05           Review of Costs of the Airfield on Midway Island                       Cost sharing arrangements between FAA and the
                                                                                                          Department of the Interior need improvement
Internal Audits: Chief Financial Officer Financial Statement–3 Reports
QC-2005-075     09/02/05           Quality Control Review of the Report on Controls Over the Delphi       Strengthen control objective areas to enhance
                                   Financial Management System                                            Delphi operations

QC-2005-076     09/22/05           Quality Control Review of KPMG's Notice of Finding and                 Improve reporting relationships and organiza-
                                   Recommendation "Financial Reporting Process-ESC Reporting Structure"   tional structure

FI-2005-077     09/27/05           Independent Accountant's Report on the Application of Agreed-Upon      Retirement, health benefits, and life insurance
                                   Procedures: Selected Personnel-Related Cost Items                      withholdings and contributions fairly repre-
                                                                                                          sented




                                                                                                 c h a r t s     &    ta b l e s                   49
Office of Inspector General Congressional Testimonies
April 1, 2005–September 30, 2005
Control No.     Date              Subject                                                  Before

CC-2005-024   04/05/05            Reauthorization of TEA-21 Safety Programs                Committee on Commerce, Science, and
                                                                                           Transportation, Subcommittee on Surface
                                                                                           Transportation and Merchant Marine, U.S. Senate

CC-2005-025   04/07/05            Department of Transportation's Implementation of the     Committee on Government Reform, U.S. House
                                  Federal Information Security Management Act               of Representatives

CC-2005-022   04/14/05            Next Steps for the Air Traffic Organization              Committee on Transportation and Infrastructure,
                                                                                           Subcommittee on Aviation, U.S. House of
                                                                                           Representatives

CC-2005-030   04/21/05            Reauthorization of Intercity Passenger Rail and Amtrak   Committee on Commerce, Science, and
                                                                                           Transportation, Subcommittee on Surface
                                                                                           Transportation and Merchant Marine, U.S. Senate

CC-2005-027   04/22/05            Impact of Water Leaks on the Central Artery/Tunnel       Committee on Government Reform, U.S. House
                                  Project and Remaining Risks                              of Representatives

CC-2005-033   05/04/05            Perspectives on the Aviation Trust Fund and Financing    Committee on Transportation and Infrastructure,
                                  the Federal Aviation Administration                      Subcommittee on Aviation, U.S. House of
                                                                                           Representatives

CC-2005-038   05/11/05            Background Checks for Holders of Commercial Drivers      Committee on Transportation and Infrastructure,
                                  Licenses with Hazardous Materials Endorsements           Subcommittee on Highways, Transit, and
                                                                                           Pipelines, U.S. House of Representatives

CC-2005-037   05/12/05            Intercity Passenger Rail and Amtrak                      Committee on Appropriations, Subcommittee on
                                                                                           Transportation, Treasury, the Judiciary, Housing
                                                                                           and Urban Development, and Related Agencies,
                                                                                           U.S. Senate

CC-2005-043   05/26/05            Outlook for Aviation Delays in the Summer of 2005 and    Committee on Commerce, Science, and
                                  Actions Needed to Mitigate Congestion in the             Transportation, Subcommittee on Aviation, U.S.
                                  Short- and Long-term                                     Senate

CC-2005-060   07/21/05            Highway-Railroad Grade Crossing Safety Issues            Committee on Transportation and Infrastructure,
                                                                                           Subcommittee on Railroads, U.S. House of
                                                                                           Representatives

CC-2005-070   09/21/05            Reauthorization of Intercity Passenger Rail and Amtrak   Committee on Transportation and Infrastructure,
                                                                                           Subcommittee on Railroads, U.S. House of
                                                                                           Representatives




50            Semiannual Report to Congress
Status of Unresolved Recommendations Over Six Months Old

                                Cited in Semiannual Report for April 1, 2000–September 30, 2000
Contract Towers: Observations on FAA's Study of Expanding the Program
AV-2000-079            04/12/00               Awaiting additional information from FAA
                                 Cited in Semiannual Report for October 1, 2001–March 31, 2002
Downtown Waycross Development Authority, Georgia
QC-2002-027         10/31/01               FHWA working with Grantee to resolve open issues

Acquisition of the Weather and Radar Processor
AV-2002-084             02/28/02               Working with FAA to resolve open issues
                                 Cited in Semiannual Report for October 1, 2002–March 31, 2003
Innovative Pavement Research Foundation
QC-2003-035            03/31/03                FHWA working with Grantee to resolve open issues
                                Cited in Semiannual Report for April 1, 2003–September 30, 2003
Status Report on FAA's Operation Evolution Plan
AV-2003-048             07/23/03               Working with FAA to resolve open issues

City and County of San Francisco, California
QC-2003-056             09/03/03               FAA working with Grantee to resolve open issues

FAA Needs to Reevaluate STARS Costs and Consider Other Alternatives
AV-2003-058            09/09/03            Working with FAA to resolve open issues

State of West Virginia
QC-2003-079              09/23/03              FHWA working with Grantee to resolve open issues

State of California
QC-2003-085              09/23/03              FHWA working with Grantee to resolve open issues
                                 Cited in Semiannual Report for October 1, 2003–March 31, 2004
Chambersburg Transit Authority
QC-2004-019            01/20/04                FTA working with Grantee to resolve open issues

Quality Control Review of Audited Financial Statements for Fiscal Years 2003 and 2002, Highway Trust Fund
QC-2004-029             01/23/04                Working with FHWA to resolve open issues

Revenue Diversions at San Francisco International Airport
SC-2004-038            03/31/04                Working with FAA to resolve open issues

Inactive Obligations
FI-2004-039              03/31/04              Working with FHWA to resolve open issues
                                Cited in Semiannual Report for April 1, 2004–September 30, 2004
Erie Municipal Airport Authority
QC-2004-045              04/08/04              FAA working with Grantee to resolve open issues




                                                                                                 c h a r t s   &   ta b l e s   51
Status of Unresolved Recommendations Over Six Months Old (continued)


Michigan Department of Transportation
QC-2004-051            04/08/04                        FTA working with Grantee to resolve open issues

Indianapolis Public Transportation Corporation
QC-2004-052              04/08/04              FTA working with Grantee to resolve open issues

Government of Guam
QC-2004-056                04/08/04                    FHWA working with Grantee to resolve open issues

Highway-Rail Grade Crossing Safety Program
MH-2004-065            06/16/04            Working with FHWA, FRA, and FTA to resolve open issues

State of North Carolina
QC-2004-070             07/20/04                       FHWA working with Grantee to resolve open issues

Financial Controls for Cost Accounting and Billing Practices, Volpe National Transportation Systems Center
FI-2004-076              08/04/04                Working with RITA to resolve open issues
                                    Cited in Semiannual Report for October 1, 2004–March 31, 2005
2003 Status Assessment of Cost Accounting System and Practices
FI-2005-010           11/17/04              Working with FAA to resolve open issues

Managing Risk in the Federal-Aid Highway Program
MH-2005-012            11/19/04              Working with FHWA to resolve open issues

Terminal Modernization: FAA Needs to Address its Small, Medium, and Large Sites Based on Cost, Time, and Capability
AV-2005-016             11/23/04              Working with FAA to resolve open issues

Government of the United States Virgin Islands
QC-2005-020            12/14/04                FHWA working with Grantee to resolve open issues

State of Hawaii, Department of Transportation–Highways Division
QC-2005-024             12/20/04               FHWA working with Grantee to resolve open issues

Allen County Regional Transit Authority
QC-2005-030             12/21/04                       FTA working with Grantee to resolve open issues

Puerto Rico Highway Transportation Authority
QC-2005-039            01/04/05                        FHWA and FTA working with Grantee to resolve open issues

New York State Thruway Authority
QC-2005-040            01/14/05                        FHWA working with Grantee to resolve open issues

Guam International Airport Authority
QC-2005-043             01/14/05                       FHWA and FAA working with Grantee to resolve open issues

Inactive Obligations
FI-2005-044                01/31/05                    Working with FAA to resolve open issues



52                     Semiannual Report to Congress
FHWA Needs to Capture Basic Aggregate Cost and Schedule Data to Improve its Oversight of Federal-Aid Funds
MH-2005-046           02/15/05              Working with FHWA to resolve open issues

Government of Guam
QC-2005-047                02/15/05                  FHWA working with Grantee to resolve open issues

Greater Cleveland Regional Transit Authority
QC-2005-053            03/15/05                      FTA working with Grantee to resolve open issues

Office of the Chief Information Officer's Budget
FI-2005-055               03/31/05               Working with OST to resolve open issues




Application of Audit Project Hours by Operating Administration
April 1, 2005–September 30, 2005
                                                                                                                                                        NTSB 2%
                                                                FMCSA 1%
                                                                                                                                                        PHMSA 3%
Notes:                                                                                                                                                  FTA 3%
Resources shown for OST include time spent performing                                                                                                   NHTSA 4%
audits of the DOT Consolidated Financial Statements (which

includes all Operating Administrations), Consolidation of         FAA 40%

DOT Accounting Functions, Controls Over the Delphi

                                                                                                                                                        FRA 8%
Financial Management System, and the Federal Information
Security Management Act Review.

Resources shown for FRA include time spent performing

audits of the National Railroad Passenger Corporation.

Resources expended on the Maritime Administration, the
                                                                                                 OST 16%
Research and Innovative Technology Administration, and
the St. Lawrence Seaway Development Corporation totaled
less than 1 percent each.




                                                                FHWA 23%




Required Statements:
   The Inspector General Act requires the Semiannual Report to carry explanations, if during the reporting period, departmental management significantly revised
management decisions stemming from an audit. OIG follows up on audits reported in earlier semiannual reports. During this reporting period, departmental man-
agement did not report any significant revisions to management decisions.

   The Act also requires descriptions of any significant decisions that departmental management made regarding an audit with which OIG disagrees. When the
reporting period closed, there were no such significant decisions with which OIG disagreed.




                                                                                                          C h a r t s        &    Ta b l e s            53
54   Semiannual Report to Congress
                          awards

                   Secretarial Awards
                  Partnering for Excellence Award

December 2004 Holiday Travel Disruption Audit Team
    This team demonstrated outstanding partnering skills in addressing the
Secretary of Transportation’s concerns regarding significant flight delays and
cancellations during the 2004 holiday season. Two carriers in particular-
Comair and U.S. Airways-experienced the most service disruptions. U.S.
Airways delayed or canceled 4,300 flights and had nearly 72,000 claims for lost,
pilfered, or damaged luggage. Comair delayed or canceled 89 percent of its
flights, impacting 269,000 travelers. In only a 2-month timeframe, the team
established and operated a special hotline for passengers, which included an on­
line component; received and replied to nearly 3,000 complaints; developed a
working relationship with airline and union officials; reviewed volumes of data;
and performed extensive travel and interviews. Besides severe weather, a trans­
action limit in one carrier’s scheduling system, which neither the carrier nor the
system manufacturer knew existed, led to a complete system shutdown.
Staffing shortfalls of flight attendants and fleet service employees left the other
carrier ill-prepared for the busy holiday travel season. Approximately 100 pas­
senger complaints were identified as potential violations of the Department’s
aviation consumer rules or of the airlines’ contracts of carriage.
    Stuart A. Metzger, David J. Barnes, Leila D. Kahn, Thomas K. Lehrich,
James H. Diecker, Robert D. Falter, Gary B. Fishbein, Scott A. Florcsk,
Pamela J. Steele-Nelson, Rosemarie T. Tolson, Scott V. Harding, Kathleen
A. Huycke, Seth B. Kaufman, James F. Mallow, Cassandra S. McCaskill,
Ralph W. Morris, Stephen G. Smith, Galen L. Steele, Karen B. Thompson,
Erika S. Vincent, Ernestine M. Anderson, Mark A. Gonzales, Angela R.
Hailes, Nathan P. Heminger, Marshall E. Jackson, Jeannette M. McDonald,
Jason B. McDuffee, Charles K. Millard, Charmaine E. Newman, Dennis M.
Ocampo, Jennifer L. Randall, Robin Redd-Miller, Carlton D. Richmond,
Gina C. Ronzello, Lorena M. Simpson, Ashley B. Strickland, Georges F.
Tippens, David R. Uhl, Susan M. Zimmerman, David Bonelli, David Foss,
Nicholas Lowry, Stan Bosco, Annie Glenn, Timothy Kelly, Patrick D.
Nemons, John Pfister, Laurence Phillips, Carmen Rivera-Glagola, Norman
A. Strickman




                                                                                      awa r d s   55
                                     Federal Personnel and Payroll System Team
                                        The following individuals served on this Department-wide team that is rec­
                                     ognized for ensuring DOT’s successful migration to a new personnel and pay­
                                     roll system, as mandated by the Office of Management and Budget.
                                        Leslie A. McBroom, Karen A. Muller, Joanne M. Pittman

                                                                      Team Award
                                     Operation Gas Leak Investigation Team
                                        This team demonstrated outstanding dedication, investigative skill, and
                                     teamwork in investigating fuel theft throughout south Florida. One theft
                                     resulted in an explosion as gas was being pumped into a panel van retrofitted
                                     with a makeshift fuel tank. The individual stealing the gas was severely burned
                                     and the lives of many within proximity to the scene were endangered. Due to
                                     the serious nature of this criminal activity and its potential for critical injury and
                                     loss of human life, the team worked diligently to conduct and coordinate
                                     numerous investigative activities to uncover and break up these dangerous fuel
                                     theft rings. This included gathering and analyzing voluminous intelligence,
                                     conducting intricate and lengthy surveillance, and interviewing witnesses and
                                     fuel industry experts. As a result, criminal charges of racketeering, conspiracy,
                                     and organized scheme to defraud have been filed against 62 individuals and 12
                                     companies. This case received considerable media attention due to the serious
                                     public safety implications. In addition, this investigation led to the discovery
                                     of an additional scheme in south Florida involving the issuance of fraudulent
                                     commercial driver’s and regular driver’s licenses.
                                        Barbara L. Barnet, Marlies T. Gonzalez, Gary Walker, M. Dietrich
                                     Bohmer, Eugene Davis, Timothy Roberts, William F. Tyner

                                                     Award for Meritorious Achievement
                                     Matthew E. Hampton
                                        Mr. Hampton demonstrated outstanding leadership and initiative on numer­
                                     ous high visibility projects and provided significant support to the Senate,
                                     House, and Office of Management and Budget on FAA budget issues. He
                                     delivered reports on FAA’s $2.1 billion En Route Automation Modernization
                                     Program and Terminal Modernization Program, leading to over $500 million
                                     in reduced program costs. He has also provided invaluable insight on Senate
                                     and House issues of high importance to the OIG.

                                     Rodolfo E. Pérez
                                        Mr. Pérez has provided critical engineering expertise on the OIG’s review of
                                     three major surface transportation construction projects, including synthesiz­
                                     ing and articulating sophisticated data in support of two Congressional testi-

56   Semiannual Report to Congress
                           awards

monies. Also, he provided oversight on how states are achieving the Secretary’s
vision of safer, simpler, and smarter transportation solutions. He was also per­
sonally requested to assist the U.S. Attorney’s Office and the OIG’s Assistant
Inspector General for Investigations on a high-profile case.

                           Award for Excellence

Maria T. Sturniolo
   Ms. Sturniolo has demonstrated superior initiative and dedication in provid­
ing executive support to the Inspector General. She is relied upon to quickly
resolve critical issues within the immediate office, often involving high-level pri­
orities and interests. She represents the OIG on all executive correspondence
issues, working with top officials within and outside the Department, and has
greatly improved efficiency in the program. She also led the development and
on-the-job training of student interns in the immediate office.


           Inspector General Awards
                                Team Award
Alleged Whistleblower Reprisal Investigation Team
   This team investigated serious allegations that a DOT Operating
Administration employee was the victim of reprisal as a result of his disclosure
that a prominent industry entity had been violating Federal regulations.
Specifically, the employee was ordered to be involuntarily transferred based on
his manager’s finding that he did not maintain good working relationships with
industry, state government, and DOT officials and that he had mismanaged the
Operating Administration’s district office. Given that negative action by the
Operating Administration was also pending against the employee, the team
worked quickly in conducting numerous interviews of members of industry,
state associations, and the state police, as well as DOT officials. They also
reviewed volumes of documents collected during the Operating
Administration’s internal investigation of the employee. The team determined
that the allegations against the employee lacked merit and that the decision to
transfer him was based on inaccurate information that was never verified. As a
result of the team’s exemplary efforts, the Operating Administration reinstated
the employee to his position.
   R. Curt Vaughan, Omer G. Poirier, Clayton W. Boyce, John M. Hannon



                                                                                       awa r d s   57
                                     Amtrak Assessment Team
                                         This team issued a comprehensive report on Amtrak’s financial performance
                                     and capital requirements, a report on potential savings on Amtrak’s long-dis-
                                     tance train services, and three testimony statements. They also developed leg­
                                     islative proposals on intercity passenger rail reauthorization for House and
                                     Senate committees and conducted numerous briefings for departmental and
                                     industry officials, congressional staffs, and examiners from the Office of
                                     Management and Budget. Each team member gained expertise in several dis­
                                     ciplines, interviewed numerous Amtrak and rail industry officials, and analyzed
                                     volumes of documentation. The technical nature of the team’s analysis includ­
                                     ed econometric modeling, financial analysis, and applied rail industry econom­
                                     ics. They determined that Amtrak’s on-time performance fell far short of estab­
                                     lished targets and reflected a multi-year trend of continued decline. They also
                                     identified shortfalls in capital funding, which resulted in reprogramming and
                                     project delays and impeded Amtrak’s efforts to achieve financial goals.
                                     Products covered a diverse universe of complex issues, ranging from Amtrak’s
                                     financial condition to passenger rail reauthorization. The quality, responsive­
                                     ness, and timeliness of the team’s work was exceptional, even by the most
                                     demanding performance measures.
                                         Mitchell L. Behm, Stuart A. Metzger, Thomas K. Lehrich, Betty A. Krier,
                                     Debra L. Mayer, Seth B. Kaufman, Akilah A. Boston, Lisa T. Mackall,
                                     Meredith C. McDaniel, Katherine G. Ovalle, Andrew J. Sourlis

                                     Central Artery/Tunnel Project Audit Team
                                        This team performed outstanding work in preparing testimonies for the U.S.
                                     House of Representatives and the Massachusetts State Legislature on the
                                     impact of water leaks on the Central Artery/Tunnel Project-the most expen­
                                     sive public highway project in U.S. history, costing nearly $15 billion. This was
                                     in response to I 93 tunnel concrete slurry wall panel leaks that became an emer­
                                     gent public concern in September 2004 when a panel breach caused 300 gal­
                                     lons of water per minute to spill onto a tunnel roadway, and a second type of
                                     leak emerged at the tunnel’s roof-wall joints. The team’s first testimony in
                                     December 2004 focused on the imperative to identify the nature and extent of
                                     the leaks and how and why they occurred, and on implementing a lasting solu­
                                     tion in a manner requiring that the responsible parties, not taxpayers, bear the
                                     financial burden. In April 2005, the team provided a second testimony high­
                                     lighting that the same imperatives existing in December 2004 remained and
                                     that much about the leaks was still unknown. They analyzed volumes of tech­
                                     nical information and worked with FHWA personnel to ensure that tunnel
                                     leaks were expeditiously repaired, taxpayers’ interests were protected, and the
                                     public’s confidence was restored.
                                        Sarah E. Batipps, Jim H. Crumpacker, David J. Barnes, Thomas K.
                                     Lehrich, Rodolfo E. Pérez, Clayton W. Boyce, George Lavanco, Amy J. Berks,

58   Semiannual Report to Congress
                          awards

Laurence G. Burke, Timothy G. Keane, Harriet E. Lambert, Michael
Dzandza, Vera W. Tam, Aron O. Wedekind

CFO Audit Team
   This team successfully issued the FY 2004 DOT Consolidated Financial
Statement Audit Reports, meeting the Office of Management and Budget’s
accelerated deadline of November 15, 2004. This accomplishment is particular­
ly exceptional as the team was staffed with fewer resources than are typically
assigned to this type of audit and had a timeframe that was 75 days fewer than
normally allotted. To meet this challenge, they demonstrated exceptional plan­
ning and audit skills in coordinating with DOT Operating Administrations, con­
tractors, and officials of the Government Accountability Office, U.S. Treasury,
and Internal Revenue Service. They also demonstrated outstanding initiative and
dedication by working long hours to address unanticipated issues. This audit was
further complicated in that four material weaknesses remained from the prior year
that impacted the complete and accurate reporting of over $67 billion. Also,
DOT had not yet completed its conversion to the new accounting system, DEL­
PHI. Despite these obstacles, the team was successful on all fronts.
   Earl C. Hedges, Petra Swartzlander, Joann K. Adam, George E. Banks,
Philip J. deGonzague, Leonard F. Meade, Mark F. Rielly, Sharon J. Ayers,
Maria L. Dowds, Ingrid R. Harris, Henry S. Lee, James F. Mallow, Renee
Yancy, Brian J. Frist, Brian G. Greene, Ericka S. Harris, Kevin J. Kelly, Sr.
Kevin J. Kelly,

Chief Information Officer’s Budget Audit Team
   This team demonstrated outstanding performance in identifying budget­
ary and contract oversight weaknesses in the Department’s Chief
Information Officer’s (CIO) office’s budget request. This review was con­
ducted at the request of the Senate Committee on Appropriations in
response to concerns over the significant dollar increase in the office’s budg­
et request. The committee was also concerned with the potential for duplica­
tive and overlapping information technology budget requests between the
CIO’s office and the Department’s Operating Administrations. The team
also identified that the CIO office needed to strengthen oversight of contract
services. They identified one instance in which significant funding was obli­
gated for an individual’s services without competition and specific measura­
ble products. The team also concluded that a robust and consistent man­
agement review process for information technology investments was neces­


                                                                                    awa r d s   59
                                     sary in order for informed and justified investment decisions to be made.
                                        Edward A. Densmore, Philip J. deGonzague, Aaron B. Nguyen

                                     DFW Operational Errors Investigation Team
                                        This team investigated an FAA whistleblower’s allegations that managers at
                                     the Dallas-Ft. Worth (DFW) Terminal Radar Approach Control Facility (TRA­
                                     CON) covered up operational errors that should have been reported to FAA.
                                     In response to a request by the Secretary, the team investigated allegations,
                                     including unreported incidents of aircraft flying too close to each other on an
                                     average of once per month. They interviewed air traffic controllers, supervisors,
                                     and managers assigned to the TRACON and determined that a former manag­
                                     er had established a policy by which suspected operational errors were improp­
                                     erly investigated and thus under-reported. Also, the team identified a lack of
                                     quality assurance on FAA’s part. Despite previous reports on operational errors,
                                     FAA had not looked beyond the surface to determine the underlying cause,
                                     thereby allowing this improper practice to continue for 7 years. The team’s
                                     work and recommendations resulted in corrective action being taken for all air
                                     traffic controllers involved, and FAA pledged to make system-wide changes in
                                     how operational errors are handled. The team’s results were reported to the
                                     President of the United States by the U.S. Office of Special Counsel in June
                                     2005, following a report from the Secretary to the Special Counsel.
                                        James L. Muhlenkamp, Erika S. Vincent, Mark A. Gonzales

                                     FAA Financing/ATO Audit Team
                                        This team prepared two high-profile congressional testimonies, which set the
                                     stage for reauthorizing multi billion dollar aviation programs and the taxes that
                                     support them. Both testimonies were prepared under tight deadlines and were
                                     of exceptionally high quality. In addition, based on the team’s quality and in-
                                     depth analyses on complex aviation programs, their work received accolades
                                     from committee chairs, high-level administration officials, and leaders of the
                                     aviation community. Specifically, the team analyzed the financial health of the
                                     Aviation Trust Fund, identified ways for the FAA to control costs, chronicled
                                     progress and problems with multi-billion dollar acquisitions, and provided the
                                     range of actions for FAA to make better investments in the nation’s Air Traffic
                                     Management System. Further, they provided lucid and cutting-edge analyses
                                     of financing options, including users-fees and "bonding" authority for FAA,
                                     and established prerequisites for the FAA financing debate. The work of this
                                     team provided Congress with invaluable and time-critical support and serves as
                                     a model for other OIG teams to follow.
                                        Mitchell L. Behm, Kevin Dorsey, Matthew E. Hampton, Daniel R.
                                     Raville, Arthur A. Shantz, Robert F. DeAntonio, Francis E. Danielski,
                                     Ralph W. Morris, Stephen G. Smith, Joseph J. Hance, Won J. Kim, Gina C.
                                     Ronzello, Victoria J. Smith

60   Semiannual Report to Congress
                          awards

False Colorado Driver’s and Commercial Driver’s Licenses Investigation Team
   This team investigated schemes and sources used to illegally obtain false dri-
ver’s and commercial driver’s licenses. They effectively assembled fragmentary
information from a series of prior unconnected investigations and established
links to a core group of individuals responsible for perpetrating the fraud. They
identified two Department of Motor Vehicles (DMV) examiners and two mid­
dlemen as primary sources. The team used various investigative techniques
including a confidential informant, covert surveillance, and controlled buys of
identification documents to establish sufficient probable cause to obtain search
warrants. They ensured simultaneous execution of four search warrants to
maximize the collection and preservation of key evidence. Their surveillance of
the monetary bribing of a DMV employee led to the execution of an additional
search warrant at the employee’s residence, where bribery money and drugs
were located. As a result of the team’s effort, 140 licenses were voided. Their
laudable results positively impacted public safety and are attributable to the
high degree of cooperation and collaboration of the team members.
   Joe O’Haver, Harry Cigliano, David Dechant, Tim Foote, Cindy Horton,
Jeff Lembke, Joseph Mackey, Richard Predovich, William Taylor, Rene
Vonder Haar

Industry in Transition Audit Team
   This team represents the merger of two complex reviews-FAA Oversight of
Financially Distressed Air Carriers and FAA Oversight of Low-Cost Carriers.
The team identified shortcomings in FAA’s risk based oversight systems that
hindered FAA’s ability to change inspection plans and effectively monitor air
carrier changes. They also identified shortcomings in FAA’s oversight. For
example, although most aircraft maintenance work is performed at night, the
team found that an average of only 3 percent of FAA’s oversight of this work
was being performed at night. Also, FAA inspectors were not always gearing
their inspections to address areas of higher risk and did not complete 26 per­
cent of planned inspections. The team’s work disclosed that more than half of
these incomplete inspections were in high-risk areas. The team’s findings
prompted FAA to make important changes to their oversight processes to
improve aviation safety.
   Lou E. Dixon, Mary E. Hanson, Robin P. Koch, Kevin F. George, Kathleen
A. Huycke, Thomas D. Jefferson, James D. Madden, Galen L. Steele,



                                                                                    awa r d s   61
                                     Curt L. Boettcher, Curtis S. Gelber, Jeannette M. McDonald, Richard H.
                                     Payne, Katherine A. Yutzey

                                     Management of Airport Noise Land Audit Team
                                        This team performed outstanding audit work in reviewing FAA’s oversight
                                     of land purchased for airport noise compatibility programs. This review was
                                     initiated due to concerns that airports were not disposing of large amounts of
                                     valuable noise land which was no longer required, or were not appropriately
                                     returning or reinvesting proceeds from land disposals. The team conducted
                                     reviews at 11 airports nationwide and coordinated issues with numerous FAA
                                     staff and airport officials. They identified 3,600 acres of unneeded noise land
                                     with an estimated worth of $197 million-FAA’s share being about $160 mil­
                                     lion. They also found that 8 of the 11 airports had disposed of nearly 1,000
                                     acres of noise land, with an estimated value of $101 million, through sales, leas­
                                     es, or exchanges. However, 6 of the 8 airports misused proceeds for airport
                                     operations and capital projects, rather than returning the proceeds to the Trust
                                     Fund or using them for other FAA-approved noise mitigation projects. FAA’s
                                     share of these misused proceeds is approximately $82 million. If fully imple­
                                     mented, the team’s recommendations could generate an estimated $242 mil­
                                     lion for the Trust Fund or other noise mitigation projects at the 11 airports
                                     reviewed and will improve FAA’s oversight of the program.
                                        Darren L. Murphy, James H. Diecker, Greggory S. Bond, Michael P.
                                     Dunn, Kathleen A. Huycke, Randy D. Rohwer, Gloria J. Echols, Deborah A.
                                     Kloppenburg, Georges F. Tippens

                                     Motor Fuel Tax Audit Team
                                         This team performed exceptionally in monitoring and reporting on FHWA’s
                                     stewardship of Highway Trust Fund monies used to combat motor fuel tax eva­
                                     sion fraud, which costs the Nation an estimated $1 billion annually. They iden­
                                     tified that DOT has yet to receive any appreciable return on its nearly $40 mil­
                                     lion investment with the Internal Revenue Service to develop an excise fuel tax
                                     reporting system to enhance fuel tax enforcement. This was especially signifi­
                                     cant given the passage of the Safe, Accountable, Flexible, and Efficient
                                     Transportation Equity Act, which provides the Internal Revenue Service with
                                     about an additional $122 million through FY 2009 for continued compliance
                                     activities. The team provided the impetus for new annual Trust Fund financial
                                     statement disclosures on the effect of fuel tax evasion on revenues, and high­
                                     lighted the need to define roles for a new congressionally mandated Motor Fuel
                                     Tax Enforcement Advisory Commission. They also wrote congressional testi­
                                     mony and language for a Senate Appropriations Committee report and
                                     responded to questions from the Office of the Secretary.
                                         Jim H. Crumpacker, Michael Marshlick, Omer G. Poirier, Gary Walker


62   Semiannual Report to Congress
                          awards

National Transportation Safety Board Federal Information Security
Management Act Audit Team
   This team conducted the first-year information security audit at the National
Transportation Safety Board (NTSB) based on the Office of Management and
Budget’s OMB expanded Federal Information Security Management Act
(FISMA) reporting requirement to include small agencies such as the NTSB.
They faced the challenge to complete the review within 3 months while also
supporting the FISMA audit being conducted at DOT. The team identified
over 5,000 vulnerabilities that enabled them to obtain substantial sensitive
information from NTSB’s network such as investigation results, employee
salaries, social security numbers, and credit card numbers. Their work led
NTSB management to report its information security program as a material
internal control weakness on the annual Federal Managers’ Financial
Integrity Act Report to the Office of Management and Budget and
Congress. In response to their findings, NTSB’s Chairman immediately
appointed a Chief Information Officer to enhance information security.
   Dr. Ping Zhong Sun, John M. Johnson

Operation Safe Roads Investigation Team
   This team’s investigation targeted five companies that were violating
Federal law through the falsification of truck driver duty status records (a.k.a.
logbooks). They analyzed business records, interviewed numerous witnesses,
served summonses, and executed search warrants in their successful effort to
expose such criminal activity in the motor carrier industry that was placing
travelers on our Nation’s highways at great risk. The companies investigated,
which included California’s largest meat distributor, were forcing their drivers
to remain on public highways well beyond the legal limit and were conspiring
to falsify drivers’ logbooks in order to conceal this crime. One such occasion
had already led to a fatal accident in which a father and son were killed. The
team’s work resulted in felony charges filed against all 5 companies, and a total
of 20 drivers, 1 dispatcher, and 2 company officials. To date, eight drivers
have been convicted and sentenced. Also, in an unprecedented sentencing,
one company was fined more than $1 million, most of which is to be paid to
the California Highway Patrol toward combating DOT hours-of-service vio­
lations in order to strengthen safety on public highways.
   Hank W. Smedley, William L. Swallow, Michelle W. McGee, Michelle T.
McVicker, Ricky L. Bostian, Helena T. Chavez, Paul L. Blake, Lisa A. Glazzy,



                                                                                    awa r d s   63
                                     Nicholas J. Guggino, Jr., Stephen C. Jackson, Angel R. Jimenez, Wayne M.
                                     Nomi, Efferem I. Poynter, Lonnie G. Robertson, Steven M. Schleyer, James
                                     K. Wahleithner, Douglas N. Campau, Brady Ipock, Boris K. Prentiss,
                                     Barbara Caripides

                                     Railroad Grade Crossing Safety Audit Team
                                        This team prepared testimony for the Railroads Subcommittee of the House
                                     Transportation and Infrastructure Committee, regarding the railroads’
                                     responses to serious accidents and FRA’s oversight. Through an outstanding
                                     effort, the team analyzed highly complex grade crossing issues and identified
                                     weaknesses in FRA’s policies and procedures. The team was successful in
                                     responding to audit objectives and congressional concerns. Specifically, they
                                     identified railroads’ failure to report 21 percent of reportable grade-crossing
                                     collisions to the National Response Center, and made recommendations to
                                     FRA related to clarifying accident reporting, collecting independent informa­
                                     tion on crossing collisions, and increasing enforcement of existing Federal reg­
                                     ulations. In September 2005, OIG issued a draft report to the FRA
                                     Administrator and requested an official response to the team’s findings and
                                     recommendations. In addition, the team frequently briefed senior officials of
                                     OIG, FRA, and Congress. They were exceptionally organized and dedicated,
                                     and routinely worked long hours in order to meet audit milestones.
                                        Michael E. Goldstein, Brenda R. James, Clayton W. Boyce, Stephen
                                     Gruner, Wendy M. Harris, Harriet E. Lambert, Brett M. Kramer, Michael
                                     Masoudian, Rosa L. Scalice, Joseph Tschurilow, Scott L. Williams

                                     TeamMate Implementation Team
                                        This team performed exceptionally in the successful implementation of OIG’s
                                     new electronic work paper system, TeamMate. They demonstrated outstanding
                                     teamwork and energy in developing a plan to implement this new system OIG-
                                     wide and ensure that all audit staff received necessary training. This included
                                     coordinating participation of audit staff throughout the OIG and traveling to
                                     regional locations nationwide to conduct on-site training. The team worked
                                     quickly to design and develop training materials, coordinate training activities,
                                     develop and coordinate training schedules, resolve schedule conflicts, and ensure
                                     that senior management officials were kept apprised of the status of the imple­
                                     mentation. They exercised a great deal of independence, ingenuity, and collab­
                                     oration in managing this implementation and ensuring its success. To date, 90
                                     percent of OIG’s audit staff has been successfully trained and the team’s work
                                     has resulted in improved efficiency and productivity of the audit process. Also,
                                     the audit organization benefited through the enhancement of operational effi­
                                     ciency in risk assessment, scheduling, preparation, review, and report generation.
                                        Amanda D. Barton, Johanna L. Nathanson


64   Semiannual Report to Congress
                          awards

                  Award for Superior Achievement
Stephen C. Jackson
   Mr. Jackson demonstrated extraordinary investigative skills on two investi­
gations of criminal activity posing a serious safety risk to the traveling public.
On Operation Safe Pilot, he identified several individuals who had concealed
disqualifying medical conditions, for which they were receiving social security
benefits, to obtain pilot certificates. On Operation Safe Roads, he gained the
cooperation of two companies and seven drivers, and gathered significant evi­
dence against three trucking companies that were forcing drivers to falsify driv­
ing logs and remain on our highways well beyond the legal limit.

Betty A. Krier
   Ms. Krier provided critical economic analysis on OIG’s assessment of
Amtrak’s financial and operation status. She identified routing and service sce­
narios that could reduce net operating losses on Amtrak’s long-distance routes
by between $75 million and $158 million per year. She also found that an aver­
age of $79 million in planned capital expenditures over each of the next 5 years
could be avoided. Ms. Krier concluded that these savings could be attained
without eliminating routes, station stops, or frequencies. She also ensured the
team’s work was in accordance with generally accepted economic standards.

                Exceptional Civilian Service Award

James H. Diecker
   Mr. Diecker has 35 years of dedication to Federal service. During his 22
years with the OIG, he has managed over 100 audits and reviews. After the
attacks of 9/11, he directed undercover tests to assess security at five airports
and a review of claims by 19 air carriers for Federal compensation for losses
resulting from the attacks. He was instrumental in the OIG’s response to the
Secretary’s request for an investigation of the highly-publicized holiday air trav­
el disruptions of December 2004. His work has resulted in over $1 billion in
benefits to the Federal Government and America’s taxpayers.

Matthew P. Farrugia
  Mr. Farrugia has dedicated nearly 10 years of service to law enforcement in
the public sector. During this time, he has provided assistance to and received
numerous compliments from other Federal agencies. He played a critical role


                                                                                      awa r d s   65
                                     in the "PENTIBOMB" 9/11 task force, for which he was commended by the
                                     FBI. He also worked tirelessly on the OIG’s investigation of household goods
                                     moving fraud, for which he was recognized by the U.S. Attorney’s Office. His
                                     investigative excellence has earned him the highest respect throughout the law
                                     enforcement community.

                                     Mary E. Smothers
                                        Ms. Smothers has over 25 years of Federal service-dedicating nearly 20 years
                                     to OIG. She has led financial statement and financial management audits, as
                                     well as single audit activities for the OIG. Her work on the Audit of
                                     Consolidation of DOT Accounting Functions identified $2.3 million in savings
                                     above the $4.8 million identified by one Operating Administration, and includ­
                                     ed 15 DOT accounting offices. Also, as directed by the House Subcommittee
                                     on Appropriations, she led the OIG’s follow-up audit of inactive obligations of
                                     FHWA.

                                     R. Curt Vaughan
                                        Mr. Vaughan has distinguished himself as an exceptional member of the
                                     OIG investigative community. He is often relied upon to lead sensitive inves­
                                     tigations based on his superior professionalism and impeccable reputation.
                                     These cases have included reprisal action against an employee for disclosing
                                     safety violations by a senior official, allegations against a DOT senior execu­
                                     tive, and investigation activity in support of a Merit Systems Protection Board
                                     trial. He is an invaluable asset in investigating issues of great importance to
                                     the Inspector General, the Department, and Congress.

                                     Sydney H. Verinder
                                        Mr. Verinder has 28 years of Federal service and more than 17 years of serv­
                                     ice with the OIG. He has been selected to lead numerous quick turn-around,
                                     high-visibility OIG projects based on his dynamic and innovative approach. He
                                     also leads the OIG audit tracking and reporting program in an outstanding
                                     manner, including addressing Departmental, congressional, and other external
                                     reporting requirements. His expertise is such that he has been requested to
                                     assist senior members of the Departments of Agriculture and Interior in devel­
                                     oping their own audit tracking and reporting systems.

                                           Marguerite Christensen Award for Excellence in
                                                         Administration
                                     Lyn Banagan
                                       Ms. Banagan provided outstanding customer service over the last year to the
                                     entire investigative organization and one of OIG’s largest audit organizations-
                                     Aviation and Special Program Audits (JA-10). This included an exceptionally


66   Semiannual Report to Congress
                          awards

aggressive recruitment campaign in OIG’s investigative organization, a reorga­
nization of OIG’s Headquarters investigative staff, and a reorganization of the
JA-10 staff. She also led OIG to being among the first Federal organizations
compliant with new executive evaluation policies and executed multiple execu­
tive recruitment actions. Further, she has continued to ensure that critical pol­
icy documents governing OIG’s human resources programs are properly coor­
dinated and disseminated.

                     Manager of the Year Award
Joseph W. Comé
   Mr. Comé has demonstrated to his staff excellent working relationships with
Congress and DOT Operating Administrations and throughout the OIG. In
addition, he proposed and facilitated a training conference specifically designed
for OIG’s project managers with tailored instruction at a level difficult to find
through traditional training sources. His stellar professionalism was evidenced
by his ability to discuss and gain consensus on OIG audit recommendations
with executives from the Office of the Secretary and the FMCSA.

Earl C. Hedges
   Mr. Hedges has fostered a positive and productive work environment for his
employees. Under his management, audits of FY 2004 financial statements for
multiple Operating Administrations and DOT’s consolidated financial statement
audit, were completed and reports issued within very stringent deadlines. He
also has ensured the FY 2005 financial statement audits are on track, while man­
aging other important audits. He has consistently worked in the interest of his
staff and OIG and maintained the respect and loyalty of his staff and peers.

Daniel R. Raville
   Mr. Raville provided outstanding management of audits of FAA’s air traffic
operations, including FAA’s strategy to replace retiring controllers and reducing
the time and cost of training new controllers. He also led an evaluation of oper­
ational errors, excessive overtime, and controller work schedule changes for
improving productivity at a New York facility. Further, he was instrumental in
identifying the next steps the air traffic organization must take to reduce oper­
ating costs. His contributions have enhanced oversight of aviation programs.




                                                                                    awa r d s   67
                                     Ned E. Schwartz
                                        Mr. Schwartz has led his staff in spearheading contract and grant fraud ini­
                                     tiatives, including ensuring OIG’s founding membership on the Federal
                                     Construction Fraud Task Force. His management of work in this area has
                                     uncovered organized crime and corruption, which have plagued the New York
                                     area transportation construction program. He often provided expertise on the
                                     development of legislation to address household goods moving fraud and crim­
                                     inal activity, and assisted in the development of congressional testimony.

                                                          Supervisor of the Year Award

                                     Susan L. Bader
                                         Ms. Bader played a pivotal role in planning for the Department’s move to a
                                     new Headquarters building. During OIG’s review of cost estimates used to sup­
                                     port the relocation, she raised concerns that the relocation project lacked suffi­
                                     cient documentation to support funding requests and, in some cases, showed suf­
                                     ficient planning had not been accomplished. The Inspector General ensured
                                     DOT officials were apprised of Ms. Bader’s findings, leading to the establishment
                                     of an oversight committee chaired by the Deputy Secretary and Chief of Staff.

                                     Kerry R. Barras
                                        Mr. Barras provided outstanding leadership in keeping his teams focused and
                                     productive, even during periods of executive change, and ensured attention to
                                     staff development while maintaining high production. Acting as Program
                                     Director, he led the audit staff in organizing supporting material and preparing
                                     congressional testimony on the reauthorization of key surface safety programs.
                                     In addition, he ensured expedient completion of the draft audit report of
                                     FMCSA’s implementation of the North American Free Trade Agreement.

                                     Philip J. deGonzague
                                        Mr. deGonzague led significant information technology audit initiatives
                                     including the audit of DOT’s CIO office’s budget submission in response to a
                                     request by congressional appropriation committees. He was instrumental in
                                     helping the CIO office to enhance its budget submission and in persuading
                                     officials to obtain support from DOT’s Investment Review Board on how to
                                     fund and manage planned information technology consolidation efforts. He
                                     also led a review that disclosed vulnerabilities in oversight of contract services.

                                     Marlies T. Gonzalez
                                        Ms. Gonzalez has been instrumental in the professional growth of OIG’s
                                     Region 7 investigative staff and has aided the efficient and effective use of its lim­
                                     ited resources. She was instrumental in developing and expanding the region’s
                                     investigative caseload and steering resources toward priority areas, including


68   Semiannual Report to Congress
                          awards

contract and grant fraud, motor carrier safety, and motor fuel excise tax evasion.
Under her leadership, the investigative work of this region has resulted in 123
judicial actions, 92 indictments, and over $3 million in fines and restitutions.

Robin P. Koch
    Ms. Koch has demonstrated an exceptional work ethic and tenacity in leading
teams performing audits of FAA’s Oversight of Financially Distressed Air Carriers
and on FAA’s Oversight of Low-Cost Carriers. When these audits were merged,
Ms. Koch quickly became knowledgeable on the details of a separate audit and
its results and successfully guided remaining work efforts of additional staff mem­
bers inherited by the merge. Under her leadership, this review resulted in FAA
promising to make important changes to their oversight process.

Charles A. Ward
   Mr. Ward has led three high-profile, multi-billion-dollar audits over the last
year. On the FAA Terminal Automation Modernization and En Route
Automation Modernization audits he briefed the Inspector General on multi­
ple occasions and clearly communicated complex issues about the programs
that were crucial to OIG’s ability to affect change. Leading by example, he
demonstrates commitment to fostering teamwork, and his leadership style has
had a highly positive effect on the morale, capabilities, and results of his team.

                     Employee of the Year Award
Robert G. Anderson
   Mr. Anderson was invaluable in OIG’s review of CPA firms’ audits of con­
tracts awarded by states under Federal-aid grants. He identified approximate­
ly $3 million in questioned compensation and disclosed contract billing for
charges, including open bar tabs and tickets for sporting events, which were not
being questioned by the CPA firms. The verification phase resulted in more
than $100 million in savings. He also stepped in as Project Manager on anoth­
er review, completing the audit with resounding success.

M. Dietrich Bohmer
   Mr. Bohmer performed outstanding investigations of hazardous materials
safety violations that were placing the public in grave danger. This included
exhaustive overnight surveillance activities to gather evidence against a fuel
theft ring that was transporting and storing fuel in unsafe containers in dense-


                                                                                      awa r d s   69
                                     ly populated areas. He also led an investigation of two international trans­
                                     portation companies that were shipping hazardous materials, one of which had
                                     abandoned a truck leaking hazardous chemicals in a public area.

                                     Christopher T. Brothers
                                        Mr. Brothers developed complex techniques for analyzing motor carrier
                                     databases containing 700,000 business profiles, over 100,000 annual crash
                                     reports, and millions of vehicle inspection and traffic violation records. This
                                     was critical to the successful completion of the review of the North American
                                     Free Trade Agreement in only 4 months and to the integrity of the facts sup­
                                     porting OIG’s findings. He was also instrumental in preparing congressional
                                     testimony and a portion of the 2005 Top Management Challenges report.

                                     Kent E. Byers
                                        Mr. Byers demonstrated outstanding investigative skill on cases involving
                                     bribery, bid-rigging, extortion, and false claims. He identified corruption and
                                     fraud on highway projects receiving Federal funding, and his investigative work
                                     resulted in several millions of dollars in fines and restitutions and incarceration
                                     of individuals involved. He also represented the OIG in several presentations
                                     to industry and Government officials on contract and grant fraud awareness,
                                     for which he received laudatory remarks.

                                     Todd A. Damiani
                                        Mr. Damiani has aggressively pursued contract and grant fraud investiga­
                                     tions, representing OIG as the sole agent assigned to the Meriden, Connecticut
                                     office. His assistance was requested by the Connecticut State Attorney’s Office
                                     on an investigation involving circumvention of the contract award bidding
                                     process and violation of federally mandated contracting procedures. He also
                                     investigated an individual who had used false identification to obtain a Third
                                     Class Airman Medical Certificate and was making anti-Government statements.

                                     Francis E. Danielski
                                        Mr. Danielski was invaluable on the audits of Air Traffic Controller Staffing
                                     and the Controller-in-Charge program, and in preparation of testimony pro­
                                     viding perspectives on financing FAA’s operations. He was instrumental in
                                     briefing the Inspector General and drafted portions of the testimony, and
                                     attended meetings with the House authorizing committee staff and FAA offi­
                                     cials. He demonstrated expertise in answering questions on this complex sub­
                                     ject. He also prepared a briefing that was later provided to House authorizers.

                                     John M. Hannon
                                        Mr. Hannon performed outstanding audit work on motor carrier safety
                                     issues, including identification of a loophole in how FMCSA is implementing


70   Semiannual Report to Congress
                          awards

legislation designed to stop safety violations. Mr. Hannon developed complex
computer queries for testing and mining motor carrier enforcement data. His
findings were accepted by Operating Administration officials. In addition, he
made invaluable analytical contributions on an investigation of adverse action
taken against a DOT official.

Wendy M. Harris
   Ms. Harris provided exemplary leadership on OIG’s railroad grade crossing
audit, and provided coaching and feedback to two junior team members. She
was instrumental in the development of findings for timely inclusion in a testi­
mony statement by the Inspector General who praised her methodological
approach and her thorough knowledge of the subject matter. She demon­
strated the same command of the audit when she clearly and effectively articu­
lated audit findings during briefings with Senate and House staff members.

Anne V. Longtin
  Ms. Longtin led the audit of FAA’s Oversight of Manufacturers’ Quality
Assurance Systems for Suppliers-a new audit area for OIG. She completed 21
audits, facing the challenge of suppliers located throughout the U.S. and
Europe. She also continued her oversight of airport runway construction and
provided support to congressional testimony on airport delays and OIG’s Top
Management Challenges report. Further, she mentored a new employee who,
under her guidance, gained a solid understanding of the audit process.

Roberto Manzanares
   Mr. Manzanares performed in an exemplary manner on investigations of
motor carrier safety. He assisted the U.S. Attorney’s Office in the investigation
of a foreign national who had a commercial driver’s license with a hazardous
materials endorsement, and whose occupation was transporting fuel. The sub­
ject had illegally entered the U.S. and bribed an examining official for answers to
the driver’s license test. Mr. Manzanares vigorously pursued the identity of the
examiner and implicated a supervisory examiner for similar conduct.

Linda G. Morgan
   Ms. Morgan provided invaluable leadership on OIG’s workforce survey
project and developed a web-based questionnaire to identify needs of FHWA’s
workforce, as reported by over 1,000 employees nationwide. She stepped in as
Project Manager through the exit briefing process and was complimented by


                                                                                      awa r d s   71
                                     Agency officials for her communication and problem-solving skills. Her
                                     expertise also contributed to discussions of workforce issues in OIG’s Top
                                     Management Challenges report and congressional testimony.

                                     David P. Pouliott
                                        Mr. Pouliott performed exceptionally on the audit of the NHTSA’s alcohol
                                     and impaired driving programs and preventive measures. He provided key assis­
                                     tance to the Project Manager and conducted all briefings for management. He
                                     briefed congressional staff, regional and state program representatives, and
                                     other stakeholders on the issues identified during the audit. He was also instru­
                                     mental in preparing information for the Inspector General’s briefing of Office
                                     of Management and Budget officials.

                                     Michael J. Purcell
                                        Mr. Purcell testified in grand jury proceedings, led and executed two arrest
                                     warrants, conducted undercover operations, and secured seven convictions
                                     over the last year. In one investigation, he led a nationally recognized suspect­
                                     ed unapproved parts (SUP) investigation of substandard titanium tubing being
                                     used on commercial aircraft. He also provided SUP fraud awareness training
                                     to Government and industry officials and served as the Firearms Instructor for
                                     the New York investigative staff.

                                     Melissa Pyron-Satchell
                                       Ms. Pyron-Satchell performed exceptionally on the congressionally request­
                                     ed audit of FAA’s Controller-Pilot Data Link Communications Program
                                     (CPDLC) and on the Audit of FAA’s Major Acquisitions. She was commend­
                                     ed by OIG’s Quality Assurance manager for her meticulous work on CPDLC
                                     audit. She also provided oversight and coordination for 16 major acquisition
                                     programs totaling over $14 billion. She also voluntarily provided orientation
                                     and served as a mentor to new audit interns.

                                     Stephen G. Smith
                                        Mr. Smith demonstrated remarkable initiative in performing data analysis in
                                     support of congressional testimony and guided his colleagues on query strate­
                                     gies. His skills have been utilized extensively throughout OIG on statistical and
                                     financial analysis. This has included contributions to three congressional testi­
                                     monies, leading analysis in two widely distributed aviation industry perform­
                                     ance reports, and contribution to four audits, including OIG’s 2004 Holiday
                                     Travel Disruption Audit.

                                     Kim P. Tieu
                                        Ms. Tieu provided exemplary effort and contributions in support of congres­
                                     sional oversight of pipeline and hazardous materials safety programs. She


72   Semiannual Report to Congress
                          awards

assumed roles and responsibilities typically assigned to a Project Manager such
as adjusting team schedules, balancing audit priorities, and identifying areas
needing improvement. She also led a review of pipeline and hazardous materi­
als safety as mandated under the Norman Y. Mineta Research and Special
Programs Improvement Act.

Erika S. Vincent
   Ms. Vincent performed exceptionally in support of two highly-sensitive
investigations. She led a team consisting of an OIG auditor, and evaluators and
inspectors from FAA. Their task was to demonstrate a 7-year practice of
improperly investigating operational errors at a Dallas/Ft. Worth Terminal
Radar Approach Control facility. She also exercised superior professionalism
and discretion in the investigation of a DOT official which led to referral to the
Department of Justice for prosecution.

        Paul W. Kimbrough, Sr. Award for Public and

                   Community Service

Craig A. Owens
   Mr. Owens serves as a volunteer in two programs aimed toward assisting
troubled youths. For the Peer Leadership Program, he tutors students in
Washington, D.C. and Baltimore City middle and high schools and works with
them to develop their team-building skills. He also helps students in building
conflict resolution skills toward handling situations in a non violent manner.
For the Progressive Life Center, he assists disadvantaged youths deemed "at
risk" by providing intervention, often during late evenings and early mornings.
His volunteer efforts have provided academic and social assistance, and have
provided critical intervention in cases of neglect and physical and mental abuse.

        Administrative Professional of the Year Award

Larretha A. Blackmon
   Ms. Blackmon has demonstrated a high level of motivation and profession­
alism toward ensuring the smooth and efficient operations of the Atlanta audit
office. She ensures staff training requirements remain current and that travel
reporting is maintained. On her own initiative, she addressed an issue regard­
ing potential upgrading of the office’s phone system, saving her manager’s
time and the office an unnecessary expense. She has proven very adept in


                                                                                     awa r d s   73
                                     anticipating the needs of the office and often independently resolves issues.

                                     Christina H. Lopez
                                        Ms. Lopez provides outstanding support to the administrative and single
                                     audit functions of the office. She was instrumental in eliminating backlog in
                                     the single audit program, and identifying follow up actions needed. She also
                                     ensured proper distribution of audit announcement letters, decision and mes­
                                     sage briefing packages, and audit reports. In addition, she volunteered to assist
                                     the Baltimore audit office during an extended absence of an administrative staff
                                     member by commuting weekly to that office to provide assistance.

                                                              New Employee Award
                                     Eugene Davis
                                        Mr. Davis handled investigations of aviation and hazardous materials safety,
                                     and Disadvantaged Business Enterprise and contract fraud. He led OIG’s
                                     investigation of the owner of several air carriers, including the carrier operat­
                                     ing the fatal flight carrying singer/actress Aaliyah. He unraveled multiple
                                     schemes by the owner, including falsely obtained air-carrier insurance and fail­
                                     ure to disclose a prior felony conviction. He was praised by the U.S. Attorney’s
                                     Office for his technical expertise, tenacity, and professionalism during this
                                     investigation.

                                     Narja T. Hylton
                                        Ms. Hylton made significant contributions to the successful completion of
                                     the Annual Assessment of FAA’s Cost Accounting System for 2004 and led the
                                     review for reconciling expenditures in the PeopleSoft cost accounting system.
                                     In addition, her information technology background enabled her to assist
                                     another team on computer security audits. She has independently handled
                                     tasks normally assigned to higher graded auditors, and her performance is well
                                     beyond what would typically be expected of a new employee.

                                     Marshall E. Jackson
                                        Mr. Jackson contributed to three high profile audits, as well as preparation
                                     of congressional testimony. For OIG’s audit of December 2004 Holiday
                                     Travel Disruptions, he prepared briefing slides for presentation to the Secretary
                                     and provided invaluable assistance in developing questions and data requests
                                     for the carriers. He also demonstrated great initiative and enthusiasm. As a for­
                                     mer airline pilot, he has provided the OIG with useful background information
                                     on aviation and the airline industry.

                                     Jessica Lee
                                       Ms. Lee performed in an outstanding manner in supporting the
                                     Transportation Inspector General’s Reporting system, and was instrumental in

74   Semiannual Report to Congress
                          awards

the conversion of the system to a new database and architecture platform.
During the last year, she has quickly learned the Oracle programming language
and has pioneered a way to add documents to the system, for which imple­
mentation is being designed. Ms. Lee has ensured this system is a solid plat­
form that meets the information needs of the OIG.

Stephanie Z. McCans
   Ms. McCans provided outstanding analyses in support of key findings for
several high profile safety audits and a criminal investigation on Air Ambulance
Operations. She handled the tedious task of obtaining data from the Bureau
of Transportation Statistics and two major airlines to produce audit proposals
for congressional requests. Her outstanding attention to detail has resulted in
work papers that are extremely well-written and comprehensive. She also assist­
ed in recruitment efforts by representing the OIG at career fairs.

Aaron B. Nguyen
   Mr. Nguyen performed outstanding work on two major audits, beyond tra­
ditional entry level expectations. On the review of the Office of the Chief
Information Officer’s budget submission, he effectively collected detailed
budget information from various sources and was instrumental in helping the
Project Manager in conducting the audit. On the audit of FRA’s network
infrastructure, he identified over 20,000 vulnerabilities which enabled him to
gain unauthorized access to FRA’s network from the Internet.

Tim D. Roberts
   Mr. Roberts performed excellent research on DOT payroll processing errors
on TSP catch-up contributions and coordinated with legal counsel to finalize
his conclusions prior to briefing the Inspector General and departmental offi­
cials. He also researched records for one air traffic controller who had received
more than $300,000 in gross pay during 2004. His skill in UNIX and network
scanning has proven instrumental in providing contract oversight on Delphi
issues and he was a major contributor to multiple technical audits.

Andrea J. Singletary
   Ms. Singletary has exhibited dedication and outstanding performance in sup­
port of OIG’s audit operations by handling projects typically assigned to senior
staff members. She served as the principal editor on the OIG’s 2005 DOT Top
Management Challenges Report and has assisted with preparation of testimony,
final reports, and speeches, ensuring that these documents are of the highest

                                                                                    awa r d s   75
                                     quality. Her cooperation and willingness to take on any assignment have made
                                     her a true asset to the office of Audit Planning, Policy, and Technical Support.

                                     Aron O. Wedekind
                                        Mr. Wedekind provided invaluable contributions toward OIG’s monitoring
                                     of DOT major projects and the Central Artery/Tunnel Project. In meetings
                                     with senior OIG and FHWA officials and project engineers, he displayed the
                                     discretion and professional demeanor of a seasoned auditor. He also provided
                                     exceptional support to OIG’s Engineer Advisor by rapidly learning relevant
                                     engineering problems and producing high-quality work in support of audit
                                     findings, in addition to responses to congressional inquiries.

                                     MayAnn Wood
                                        Ms. Wood provided exemplary effort, dedication, and contributions in sup­
                                     port of OIG’s Review of Security of Public Transit and Passenger Rail Systems.
                                     She provided excellent analysis and assumed increasing responsibilities for inter­
                                     viewing senior DOT and transit officials. She established excellent rapport with
                                     the operating interviewees and auditees. For example, one auditee comment­
                                     ed that he ultimately disclosed more information than he had planned based on
                                     Ms. Wood’s approach and interview style, which put him at ease.


                                                    President’s Council on
                                                   Integrity and Efficiency
                                                           Awards
                                                        Award for Excellence — Audit

                                     Audit Team for Federal Aviation Administration Major Acquisitions
                                        This team made significant contributions on the congressionally requested
                                     review of FAA’s major acquisitions program. The audit was requested by the
                                     U.S. House of Representatives, Committee on Transportation and
                                     Infrastructure. The Committee was interested in changes in FAA’s overall
                                     approach to air traffic modernization and potential impacts on capacity within
                                     the National Airspace System. The team determined that FAA modernization
                                     projects designed to provide more efficient communications, surveillance, nav­
                                     igation, and automation tools for controllers and pilots have experienced con­
                                     siderable cost growth, schedule slips, and shortfalls in performance which have
                                     shifted FAA’s efforts away from enhancing capacity in the National Airspace
                                     System to sustaining the system. The work of this team resulted in four audits
                                     and contributions to three congressional testimonies. In addition, the team
                                     briefed OMB and congressional committees on numerous occasions on various
                                     major acquisitions within FAA’s multi billion dollar acquisition portfolio.
                                        Kevin Dorsey, Fidel Cornell, Jr., Sean L. Woods, Holly A. Engebretsen,


76   Semiannual Report to Congress
                         awards

Kathleen A. Huycke, Katrina F. Knight, Heidemarie E. Leinneweber,
Krystal L. Patrick, Erik A. Phillips, Melissa Pyron-Satchell, Coletta A.
Treakle, Victoria J. Smith, Joseph J. Hance, Ryan P. Sanders, Won J. Kim

              Award for Excellence — Investigation

Federal Construction Fraud Task Force
   This team brought together the U.S. Attorney’s Office and Federal and
local members of the law enforcement community to identify and prosecute
fraud and corruption in the construction industry. To date, its members have
executed approximately 30 search warrants, and prosecutive actions have
resulted in 21 guilty pleas, 19 debarments, and orders of civil forfeiture
exceeding $30 million. The task force has developed cases against general
contractors’ fraudulent use of Minority Business Enterprises (MBE) who false­
ly represented that they have the required 12 - 15 percent MBE participation,
while instead they had hired ineligible firms to pose as MBEs or they used
their own employees to pose as MBE employees. To date, the task force has
documented approximately $120,000,000 in MBE fraud and has brought
money laundering conspiracy charges against the owner of a non-minority
contactor. The pursuit of MBE fraud has led the task force to the discovery
of additional crimes including tax evasion, filing of false income tax returns,
conspiracy, kickbacks, extortion, organized crime, bribery, money laundering,
and racketeering.
   Daniel M. Helzner, Douglas Shoemaker, Robert J. Stanek, Burton T.
Ryan, Jr., Joseph Conway, Alan Katz, Richard Lee, Anthony Roberto, Jr.,
Jonathan Mellone, Ronald Calvosa, Chuck Joe, Harvey Tuerack, Chris
Webber

Nationwide Moving Systems Investigation Team
   This team investigated schemes perpetrated by owners and employees of
Nationwide Moving Systems, LLC, to extort money and steal possessions
from their customers by quoting low-cost moving estimates and later charg­
ing exorbitant amounts, often after having held their customers’ possessions
hostage. The team executed simultaneous search warrants at the Nationwide
business address and company owner’s residence to obtain evidence which
identified over 50 victims, and disclosed that Nationwide had profited in
excess of $1 million from their scheme to hold consumer household goods
hostage for twice the payment amount customers had been quoted. One of


                                                                                  awa r d s   77
                                     the company owners was sentenced to serve 7 years in prison, and a company
                                     employee was sentenced to serve 5 years. The amount of fines and restitution
                                     each defendant will pay has not yet been determined; however, it is expected
                                     that each will pay a considerable amount.
                                       Steven N. Albino, Daniel C. Austin, Traci D. Silva, Donald Currie,
                                     Kathryn Warma

                                     Megan K. France
                                        Ms. France demonstrated outstanding investigative skill in pursuing a possi­
                                     ble breach to aviation safety and security. She initiated an investigation of a
                                     large aviation repair station to ascertain if some of the employees at that facili­
                                     ty posed a threat to aviation safety. She revealed that numerous repair station
                                     employees were illegal aliens, many of whom had false identification and social
                                     security numbers. She also determined that some of these employees had
                                     fraudulent FAA repairman certificates allowing them to repair and have access
                                     to commercial aircraft. As a direct result of her work, FAA and OIG alerted
                                     other law enforcement agencies and large aviation repair stations to the prob­
                                     lems found and the need to conduct thorough background checks on employ­
                                     ees having access to commercial aircraft.

                                     Federal Housing Finance Board’s Office of Inspector General Joint Special
                                     InvestigationTeam
                                        This investigation team comprised of officials from the U.S. Postal Service’s
                                     Office of Inspector General, the U.S. Department of Labor, and the Federal
                                     Housing Finance Board pursued allegations involving a high-level FHFB offi­
                                     cial making false statements to Congress and Federal investigators. The fol­
                                     lowing OIG employee participated on this team during his prior employment
                                     with the U.S. Postal Service.
                                        Jim H. Crumpacker

                                              Award for Excellence — Law and Legislation
                                     Motor Carrier Reauthorization Audit Team
                                        This team combined legal, legislative, investigative, and audit expertise to
                                     ensure that critical initiatives for countering fraud, improving programs for pro­
                                     moting truck and bus safety, and improving oversight of household goods
                                     movers were incorporated into surface transportation reauthorization legisla­
                                     tion. The team worked closely with DOT executives, congressional staff, OMB
                                     officials, state officials, and industry groups, and provided briefings to present
                                     OIG findings and discuss potential legislative solutions. In addition, they pro­
                                     vided key contributions to congressional testimony on surface transportation
                                     management challenges facing the Department and on specific provisions for
                                     the reauthorization of the Transportation Equity Act for the 21st Century safe-

78   Semiannual Report to Congress
                         awards

ty programs. Specific provisions of reauthorization legislation approved by the
House or Senate impacted by the team’s work include areas such as oversight
of commercial driver’s license programs, and strengthening household goods
enforcement, including greater civil penalties and ensuring that states have
authority to take corrective action.
   Brian A. Dettelbach, Joseph W. Comé, Thomas K. Lehrich, Omer G.
Poirier, Ned E. Schwartz, Kerry R. Barras, Gerard J. Sheeran, Gary
Walker, Christopher T. Brothers, Maurice Toval

         Award for Excellence — Employee Protections

Alleged Whistleblower Reprisal Investigation Team
   This team worked under very stringent time constraints in conducting an
investigation of alleged whistleblower reprisal action against a DOT employee.
After reporting Federal violations by a prominent industry official, the employ­
ee was directed to be transferred involuntarily based on his supervisor’s asser­
tion that he did not maintain good working relationships with industry, state,
and DOT officials and that he had mismanaged the district office to which he
was assigned. When the employee refused the transfer, removal action was ini­
tiated against him by his employer. The investigation team worked quickly in
conducting numerous interviews of members of industry, state associations,
and the state police, as well as DOT officials. The team also reviewed volumes
of document. They determined that the allegations against the employee were
without merit, and that the proposed transfer and removal of the employee
were based on unverified information. As a result of the team’s work, the
employee was reinstated to his position, and references to these actions were
removed from his official personnel records.
   Richard C. Beitel, Jr., Omer G. Poirier, Clayton W. Boyce, John M.
Hannon, R. Curt Vaughan

     Other Awards and Recognition
Steven N. Albino
   Certificate of Commendation, U.S. Attorney’s Office

Timothy L. Arnold
   Outstanding Law Enforcement Officer Award, U.S. Attorney’s Office




                                                                                   awa r d s   79
                                     Robert C. Brautigam
                                       Award for Investigative Excellence, U.S. Attorney’s Office

                                     M. Dietrich Bohmer
                                       Letter of Commendation, Florida Department of Revenue

                                     Steven A. DeFazio
                                        Outstanding Law Enforcement Officer Award, U.S. Attorney’s Office
                                        Letter of Appreciation, Household Goods Moving Victim

                                     Jill S. Dempsey
                                        Certificate of Distinguished Service, Secretary of Transportation
                                        Award for Investigative Excellence, U.S. Attorney’s Office

                                     Daniel M. Helzner
                                       Award for Excellence, U.S. Attorney’s Office
                                       Letter of Appreciation, Secretary of Transportation

                                     Anthony Jacaruso
                                       Letter of Appreciation, Secretary of Transportation

                                     Richard M. McGrade
                                        Letter of Appreciation, Secretary of Transportation
                                        Letter of Appreciation, U.S. Attorney’s Office

                                     Douglas Shoemaker
                                       Award for Excellence, U.S. Attorney’s Office
                                       Letter of Appreciation, Executive Director of the Association of Inspectors
                                     General

                                     Ned E. Schwartz
                                       Letter of Appreciation, Secretary of Transportation

                                     Robert J. Stanek
                                       Award for Excellence, U.S. Attorney’s Office
                                       Letter of Appreciation, Secretary of Transportation

                                     Michael J. Waters
                                       Award for Investigative Excellence, U.S. Attorney’s Office

                                                           Hurricane Katrina Relief

                                     On-Site Support
                                       The following individuals were deployed to New Orleans and Mississippi in
                                     the immediate aftermath of Hurricane Katrina and worked tirelessly to provide

80   Semiannual Report to Congress
                         awards

physical security to Department of Transportation assets and employees,
including the Secretary and departmental and congressional officials.
   Normalyn Anderson, Daniel C. Austin, Paul L. Blake, M. Dietrich
Bohmer, Keith A. Bonanno, Helena T. Chavez, Franklin H. Davenport,
Eugene Davis, Steven A. DeFazio, Jill S. Dempsey, Melissa E. Ehlinger,
Megan K. France, Kevin R. Gaul, Daniel M. Helzner, Leigh R. Hinson,
Stephen C. Jackson, Angel R. Jimenez, Todd O. Kath, Roberto Manzanares,
Michelle W. McGee, Charles K. Millard, Charles V. Miller, Wayne M.
Nomi, Joe O’Haver, William L. Owens, Mark E. Peters, Efferem I. Poynter,
Boris K. Prentiss, Michael J. Purcell, Henry Rivas, Lonnie G. Robertson,
Harry Schaefer, Steven M. Schleyer, Floyd D. Sherman, Kevin C. Shirley,
Craig S. Singleton, Brian L. Smith, Max D. Smith, Randall J. Temples,
Carlos A. Vazquez, Michael J. Waters,Bradley D. Wheeler

Command Center Support
  The following individuals provided around-the-clock support to OIG
Headquarters in the days and weeks following Hurricane Katrina.
  Gail L. Browne, Kathryn A. Jones, Jason B. McDuffee, Joseph T. O’Neill,
Jennifer L. Randall, Ashley B. Strickland, Rosemarie T. Tolson, Elise S.
Woods, Monica L. Zink

Headquarters Support
   The following individuals provided support to deployed staff members by
expediting the purchase and delivery of critical supplies and equipment and by
attending to important logistical issues for our OIG employees deployed to the
gulf states.
   Timothy L. Arnold, Barbara L. Barnet, Richard C. Beitel, Jr., Annette
M. Coston, Marlies T. Gonzalez, Peter Y. Kim, John W. Long, Santos
Ramirez, Sandra M. Roper, Ramon Sanchez, Jr., Gary Walker, Edwin J.
Wynn

                    Career Service Recognition
   The following current OIG employees will have attained 30 or more years
of Federal service as of the end of this year.
        Fidel Cornell, Jr., John R. Davenport, Brian A. Dettelbach, James
H. Diecker, David A. Dobbs, Ernest Eigenbrode, James F. Heminger,
Cassandra S. McCaskill, Scott B. Stokes, Rosemarie T. Tolson


                                                                                 awa r d s   81
                                     U.S. Active Duty Military
                                        U.S. active duty military service in Afghanistan, Iraq, and the Middle East
                                     Theater for the period of November 2004 through November 2005.

                                     Scott L. Williams
                                       Air National Guard, Operation Enduring Freedom, Al Udeid Air Base,
                                     Quatar, June 1, 2005 - August 26, 2005.



                                                      In Memory of . . .
                                       The Office of Inspector General was saddened this year with the passing of
                                     two employees. These individuals are deeply missed and remembered fondly
                                     by their many friends and co-workers throughout the OIG.

                                     Carl Christian
                                        Mr. Christian began his Federal career as an Evaluator with the Government
                                     Accountability Office in Atlanta in 1980. During his employment with GAO,
                                     he was assigned to duty stations including Mission, KS; Huntsville, AL; and Ft.
                                     Worth, TX. In November 2000, he joined the Department of Transportation
                                     as a Management and Program Analyst in Ft. Worth, TX.

                                     Ricardo J. Gomez
                                        Mr. Gomez began his Federal career as a Program Analyst with the
                                     Department of Labor in Washington, D.C. in 1993. In 1998, he began work­
                                     ing for the Department of Health and Human Services in Bethesda, MD. Mr.
                                     Gomez joined the Department of Transportation in November 2003 as a
                                     Management and Program Analyst in Washington, D.C.




82   Semiannual Report to Congress
               mission,

            organization,

             & contacts


T
         he Office of Inspector General for the Department of Transportation
         was created by Congress through the Inspector General Act of 1978
         (Public Law 95–452). The act sets several goals for OIG:

■	 To conduct or supervise objective audits and investigations of DOT’s pro­
   grams and operations;

■	 To promote economy, effectiveness, and efficiency within DOT;

■	 To prevent and detect fraud, waste, and abuse in the Department’s pro­
   grams;

■	 To review existing and proposed laws or regulations affecting the
   Department and make recommendations about them;

■	 To keep the Secretary of Transportation and Congress fully informed about
   problems in departmental programs and operations.

   OIG is divided into two major
units and four support units. The
                                         OIG FY 2005 Program-Level Resources
major units are the Office of the        Total: $65,175,098
Principal Assistant Inspector General
                                           Advisory and Assistance Contracts                                  Other $4,703,200
for Auditing and Evaluation and the                             $4,131,864
Office of Assistant Inspector General
                                                   Rent to GSA $3,883,000
for Investigations. Each has head­
quarters staff and field staff. The                     Travel $2,585,443
support units are the Office of
Legal, Legislative and External
                                          Working Capital Fund $2,155,358
Affairs; the Office of Human
Resources; the Office of Financial,
Administrative and Information
                                        Personnel Compensation and Benefits
Technology Management; and the                               $47,716,233
Office of Quality Assurance
Reviews/Internal Affairs.




                                              M i s s i o n ,          O r g a n i z at i o n   &   C o n ta c t s               83
  84
                                                                                                Inspector General




                                                                                            Deputy Inspector General




Semiannual Report to Congress
                                                          Assistant IG for
                                Assistant IG for                                             Principal Assistant IG for            Quality Assurance Reviews & Internal Affairs
                                                        Legal, Legislative, &
                                 Investigations                                               Auditing & Evaluation
                                                          External Affairs
                                                                                                                                                Human Resources
                                                                                                                                           Financial, Administrative, &
                                                                                                                                      Information Technology Management
                                Deputy AIG for
                                Investigations




                                                    Assistant IG for                Assistant IG for            Assistant IG for         Assistant IG for
                                                   Aviation & Special           Financial & Information       Surface & Maritime      Competition & Economic
                                                    Program Audits                 Technology Audits               Programs                  Analysis


                                                     Deputy AIG for                 Assistant IG for            Deputy AIG for
                                                   Aviation & Special           Information Technology        Surface & Maritime
                                                    Program Audits                & Computer Security              Programs


                                                                                    Deputy AIG for
                                                                                Financial Management
                                                                                        Audits
                                   contacts

Inspector General
Kenneth M. Mead . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1959

Deputy Inspector General
Todd J. Zinser . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–6767

Principal Assistant Inspector General for Auditing and Evaluation
Theodore P. Alves . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1992

Assistant Inspector General for Investigations
Charles H. Lee, Jr. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1967

Deputy Assistant Inspector General for Investigations
Rick Beitel . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1972

Assistant Inspector General for Legal, Legislative, and External Affairs
Brian A. Dettelbach . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–8751

Assistant Inspector General for Aviation and Special Program Audits
David A. Dobbs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–0500

Deputy Assistant Inspector General for Aviation and Special Program Audits
Robin K. Hunt . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(415) 744–0420

Assistant Inspector General for Financial and Information Technology Management Audits
Theodore P. Alves . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–0687

Assistant Inspector General for Information Technology Management and Computer Security
Rebecca C. Leng . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1488

Assistant Inspector General for Surface and Maritime Programs
Kurt Hyde . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–6238

Assistant Inspector General for Competition and Economic Analysis
Mark R. Dayton . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–9970

Chief Counsel
Thomas Lehrich . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–2923

Communications Director
David Barnes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–6312

Director for Audit Planning, Training, and Technical Support
Michelle C. Hill . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-0477

Director of Human Resources                                                                                                        Hotline to report fraud, waste, and abuse:
James Vincent (acting) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1440
                                                                                                                                       phone:    800–424–9071
Director of Financial, Administrative, and Information Technology Management                                                              fax:   202–366–7749
Jacquelyn R. Weber . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1495
                                                                                                                                      e–mail:    hotline@oig.dot.gov
Director of Quality Assurance Reviews and Internal Affairs                                                                        OIG website:   http://www.oig.dot.gov
Richard Kaplan . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1504


                                                                         M i s s i o n ,             O r g a n i z at i o n               &      C o n ta c t s            85
                                                                      abbreviations

ADS-B . . . . . . . . . . . . . . . . . . . . . . . . . . .Automatic Dependent Surveillance Broadcast                           HTF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Highway Trust Fund
AIG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Assistant Inspector General             IG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Inspector General
AIP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Airport Improvement Program                IRB . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Investment Review Board
AIR-21 . . . . . . . . . . . . . . . . . .Aviation Investment and Reform Act for the 21st Century                               IRS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Internal Revenue Service
ARTEMIS . . . . .Advanced Retrieval (Tire, Equipment, Motor Vehicle) Information System                                         IT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Information Technology
ATC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Air Traffic Control      JPDO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Joint Planning and Development Office
ATO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Air Traffic Organization         MARAD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Maritime Administration
ATOP . . . . . . . . . . . . . . . . . . . . . . . . . . .Advanced Technology and Oceanic Procedures                            MCSIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Motor Carrier Safety Improvement Act
ATOS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Air Transportation Oversight System                   NAFTA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .North American Free Trade Agreement
BATF . . . . . . . . . . . . . . . . . . . . . . .Bureau of Alcohol, Tobacco, Firearms and Explosives                           NAS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Airspace System
BTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Bureau of Transportation Statistics
                                                                                                                                NCIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Naval Criminal Investigative Service
CDL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Commercial Driver’s License
                                                                                                                                NDR . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Driver Register
CFO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Chief Financial Officer
                                                                                                                                NHTSA . . . . . . . . . . . . . . . . . . . . . . . . . .National Highway Traffic Safety Administration
CFR . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Code of Federal Regulations
                                                                                                                                NTSB . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Transportation Safety Board
CID . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Criminal Investigations Division
                                                                                                                                OA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Operating Administration
CIO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Chief Information Officer
                                                                                                                                OCIO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Chief Information Officer
CPDLC . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Controller-Pilot Data Link Communications
                                                                                                                                OIG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Inspector General
DAIG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Deputy Assistant Inspector General
                                                                                                                                OMB . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Management and Budget
DBE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Disadvantaged Business Enterprise
                                                                                                                                OPS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Pipeline Safety
DCAA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Defense Contract Audit Agency
                                                                                                                                OPM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..Office of Personnel Management
DCIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Defense Criminal Investigative Service
                                                                                                                                OSI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Special Investigations
DHS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Department of Homeland Security
                                                                                                                                OST . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of the Secretary of Transportation
DOJ . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Department of Justice
                                                                                                                                PCIE . . . . . . . . . . . . . . . . . . . . . . . . . . . .President’s Council on Integrity and Efficiency
DOT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Department of Transportation
                                                                                                                                PHMSA . . . . . . . . . . . . . . . . . . .Pipeline and Hazardous Materials Safety Administration
ERAM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .En Route Automation Modernization
                                                                                                                                QCR . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Quality Control Review
EPA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Environmental Protection Agency
                                                                                                                                RITA . . . . . . . . . . . . . . . . . . . . . . . .Research and Innovative Technology Administration
FAA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Aviation Administration
                                                                                                                                RSPA . . . . . . . . . . . . . . . . . . . . . . . . . .Research and Special Programs Administration
FBI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Bureau of Investigation
FHWA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Highway Administration                  SAS-70 . . . . . . . . . . . . . . . . . . . . . . . . . .Statement on Auditing Standards Number 70

FISMA . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Information Security Management Act                          SafeStat . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Safety Status Measurement System

FMCSA . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Motor Carrier Safety Administration                        SLSDC . . . . . . . . . . . . . . . . . . . . . . . . .St. Lawrence Seaway Development Corporation

FRA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Railroad Administration                SPAS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Safety Performance Analysis System

FTA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Transit Administration             STARS . . . . . . . . . . . . . . . . . . . . . .Standard Terminal Automation Replacement System

FY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Fiscal Year   STB . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Surface Transportation Board

GAO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Government Accountability Office                 TEA-21 . . . . . . . . . . . . . . . . . . . . . . . . . .Transportation Equity Act for the 21st Century

GMRA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Government Management Reform Act                          TRACON . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Terminal Radar Approach Control

GSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .General Services Administration                TREAD . . . . . . .Transportation Recall Enhancement, Accountability, and Documentation
HAZMAT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Hazardous Material              VE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Value Engineering


86                      Semiannual Report to Congress
U.S. Department of Transportation
        Office of Inspector General
         400 Seventh Street, S.W.
        Washington, D.C. 20590
